<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S BORDER AND TRANSPORTATION SECURITY (BTS) BUDGET PROPOSAL FOR FISCAL YEAR 2005</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       THE DEPARTMENT OF HOMELAND
                  SECURITY'S BORDER AND TRANSPORTATION
                   SECURITY (BTS) BUDGET PROPOSAL FOR
                            FISCAL YEAR 2005

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2004

                               __________

                           Serial No. 108-41

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California
Jennifer Dunn, Washington            Edward J. Markey, Massachusetts
Don Young, Alaska                    Norman D. Dicks, Washington
Duncan Hunter, California            Barney Frank, Massachusetts
Lamar Smith, Texas                   Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Louise McIntosh Slaughter, New 
Robert W. Goodlatte, Virginia        York
Ernest Istook, Oklahoma              Peter A. DeFazio, Oregon
John Shadegg, Arizona                Sheila Jackson-Lee, Texas
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
John Sweeney, New York               Jim Turner, Texas, Ex Officio
Christopher Cox, California, Ex 
Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................     1
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Infrastructure and Border Security.............................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................    25
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     5
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    25
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Oral Statement.................................................    21
  Prepared Statement.............................................     2
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    30
The Honorable John Shadegg, a Representative in Congress From the 
  State of Arizona...............................................    23
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................    18

                                WITNESS

The Honorable Asa Hutchinson, Under Secretary, Border and 
  Transportation Directorate, Department of Homeland Security
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                APPENDIX
                   Material Submitted for the Record

Questions Submitted by The Honorable Lincoln Diaz-Balart.........    37
Questions Submitted by The Honorable Mark Souder.................    38
Questions Submitted by The House Select Commitee on Homeland 
  Security, Majority Staff.......................................    42
Questions Submitted by The House Select Commitee on Homeland 
  Security, Minority Staff.......................................    56

 
                       THE DEPARTMENT OF HOMELAND
                  SECURITY'S BORDER AND TRANSPORTATION
                   SECURITY (BTS) BUDGET PROPOSAL FOR
                            FISCAL YEAR 2005

                              ----------                              


                       Wednesday, March 17, 2004

                          House of Representatives,
                     Subcommittee on Infrastructure
                               And Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:37 a.m., in 
Room 2237, Rayburn House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] presiding.
    Present: Representatives Camp, Smith, Diaz-Balart, 
Goodlatte, Shadegg, Cox (ex officio), Sanchez, Markey, Jackson-
Lee, and Turner (ex officio).
    Also Present: Delegate Christensen.
    Mr. Camp. The Subcommittee on Infrastructure and Border 
Security hearing will come to order. Today's business is to 
receive testimony regarding the fiscal year 2005 budget request 
for the Border and Transportation Security Directorate, BTS, 
mission and its various programs. The subcommittee will hear 
from Under Secretary for Border and Transportation Security 
from the Department of Homeland Security, the Honorable Asa 
Hutchinson.
    Secretary Hutchinson, thank you for testifying today about 
your Directorate's fiscal year 2005 budget request. We 
appreciate your time and the effort that went into preparing 
your testimony. We look forward to the opportunity to ask you 
some specific questions regarding the BTS budget and how 
various programs and funding will impact the strategic 
objectives of the Department.
    At this time, the Chair would urge--to allow sufficient 
time for testimony and questions will urge Members to give 
short opening statements and to submit their full statements 
for the record.
    [The statement of Ms. Jackson-Lee follows:]

Prepared Statement for the Record of the Honorable Sheila Jackson-Lee, 
          a Representative in Congress From the State of Texas

    Thank you, Chairman Camp and Ranking Member Sanchez for your 
diligence in holding today's hearing in order to allow this body to 
assess the President's Fiscal Year 2005 Budget proposal for the 
Department of Homeland Security's (DHS) Border and Transportation 
Security (BTS) Directorate. This hearing is very critical in light of 
the March 11 bombing of a Madrid subway and the loss of over 200 lives.
    In the wake of the events that have occurred in Madrid yesterday, 
it is critical to note that, in our own spending for the Department of 
Homeland Security, there has been no effort to increase funding or to 
authorize new railroad security legislation. This means that a whole 
mode of mass transportation represents a major source of threat 
vulnerability-yet another reason for us to believe that we are not as 
safe as we need to be, over two years after the tragic 9/11 incidents.
    While it is true that because there are some 1.5 million trips per 
day on commuter rails and passenger trains alone, it will be extremely 
difficult to institute airline-like security measures, we are charged 
with having the foresight to initiate rail security improvement 
programs before an incident such as the Madrid bombings occurs. Our 
critical infrastructure can no less withstand the impact of region-wide 
blackouts than it could a series of explosions as occurred in that 
situation. In Houston, the new MetroRail system counted 558,000 riders 
in January, its first month. During the four-day Super Bowl weekend, 
rail riders outnumbered bus riders, even after the city shut down 
service during some nighttime hours because of safety concerns for 
crowds. Without the installation of rail security equipment and the 
hiring of DHS-rail security staff, this new light rail system will 
represent a major source of vulnerability for Houston.
    Therefore, the Fiscal Year 2005 Budget proposal needs to be 
severely scrutinized for its shortfalls relative to rail security.
    Several years ago, we debated the desirability of dividing the 
former Immigration and Naturalization Service (INS) into two bureaus, 
an enforcement bureau and a benefits bureau. I expressed concern about 
the possibility that the enforcement bureau would become the focus of 
most of our resources to the detriment of the benefits bureau. We no 
longer debate whether INS should be divided into different bureaus for 
enforcement and benefits purposes. The establishment of the Department 
of Homeland Security has made that separation a reality. On the 
enforcement side, we have the Bureau of Customs and Border Protection 
(CBP) and the Bureau of Immigration and Customs Enforcement (ICE), and, 
on the benefits side, we have the Bureau of U.S. Citizenship and 
Immigrant Services (USCIS).
    I wish I could say that I was wrong, that my fears were unfounded, 
but my fears were not unfounded. The enforcement bureaus are receiving 
most of our resources to the detriment of the benefits bureau. The 
fiscal year 2005 request for the two enforcement bureaus is $10,214 
million, whereas the fiscal year 2005 request for the benefits bureau 
is only $1,711 million. In other words, the Administration is proposing 
to spend 6 times more on enforcement than on benefits. The real 
disparity, however, can be seen more clearly in the increases that 
these amounts represent. The Administration is requesting an increase 
of $538 million for the enforcement bureaus but only is requesting a 
$58 million increase for the benefits bureau. In other words, for every 
additional dollar the Administration is requesting for the benefits 
bureau, it is requesting 9 dollars for the enforcement bureaus.
    I am not opposed to providing sufficient funding for the 
enforcement bureaus. My concern is that the Administration is not 
requesting adequate resources for the benefits operations. The Bureau 
of U.S. Citizenship and Immigrant Services (USCIS) has not been able to 
keep up with its work load. USCIS has a backlog of more than 6 million 
benefits applications.
    The Texas Service Center presently is working on visa petitions 
that U.S. citizens and lawful permanent residents filed for unmarried 
sons and daughters on October 30, 1998. These applications sit for more 
than 5 years before anyone begins to work on them. Such delays do not 
just affect the people in other countries who are the subjects of the 
petitions. The petitioners who file family-based and employment-based 
visa petitions are lawful permanent residents and citizens of the 
United States and American employers. In fact, when such a petition is 
denied, the foreign person who is the subject of the petition does not 
have standing to file an appeal. The right to the immigration benefit 
lies with the American petitioner, not with the alien who is the 
subject of the petition.
    Despite this crisis, the Administration's proposed fiscal year 2005 
budget for USCIS only allocates $140 million for backlog reduction. 
Even with the addition of the $20 million USCIS expects to receive from 
increased processing fees, this is not sufficient to eliminate the 
backlog. The magnitude of the backlog problem can be seen in the fact 
that during the 3-year period from fiscal year 2001 through 2003, 
USCIS's reported operating costs exceeded available fees by almost $460 
million. Since the beginning of fiscal year 2001, the number of pending 
applications increased by more than 2.3 million (about 59 percent) to 
6.2 million at the end of fiscal year 2003. This increase occurred 
despite additional appropriations beginning in fiscal year 2002 of $80 
million annually to address the backlog.
    Meanwhile, $340 million is allocated for the US-VISIT program, 
which may turn out to be a waste of resources that could have been used 
elsewhere, such as for reducing the benefits applications backlog. The 
stated objective for US-VISIT is to enhance the nation's security while 
facilitating legitimate travel and trade through our borders. According 
to a September 2003 report (GAO-03-1083) from the General Accounting 
Office (GAO), US-VISIT is a very risky endeavor, the potential cost of 
the program is enormous, and it may not be able to measurably and 
appreciably achieve its goals.
    I am not sure that US-VISIT will increase the security of our 
borders even if it is fully and successfully implemented. US-VISIT only 
screens foreign visitors seeking admission on the basis of nonimmigrant 
visas, it does not screen nonimmigrant visitors from the 27 countries 
participating in the Visa Waiver Program or anyone who presents a green 
card, and it will be years before the system is fully operational at 
all of the land borders.
    I believe that we need to pay more attention to benefits operations 
and that we much use our resources more wisely.
    Thank you.

    Mr. Camp. The hearing record will remain open for 10 days 
after the close of the hearing. Members are advised they will 
receive an additional 3 minutes during the questioning time if 
they waive their opening statement.
    I will at this point submit my statement for the record, 
and ask the Ranking Member Congresswoman Sanchez if she has an 
opening statement.
     Ms. Sanchez. I actually do. And thank you, Mr.Chairman. 
And the statement is actually quite long, but I am going to try 
to skip to a couple places to get it on the record, and I will 
submit the full thing.
    Again, welcome, Secretary Hutchinson. As you and I were 
speaking earlier, I think I mentioned to you that I think, 
quite frankly, that you have the most difficult job of anybody 
over at DHS, maybe in the entire administration, because there 
is just so much to oversee in this entire area of Customs and 
Border Protection and infrastructure, et cetera. So you 
certainly have a lot of people under you, 110,000 people 
stationed all over the country and around the world.
    Your Directorate also has a broad mission, and even though 
you have a request of $19.6 billion in the budget, I really 
believe that it is not enough, it is really not enough to get 
done what we hope that you can get done in this coming year. I 
think you need more resources. I think that within the 
different categories you might need to spread them over 
differently, and I hope that is some of the dialogue that we 
can have today.
    One of the areas of particular mission that I would like 
you to address either in questions or during your testimony is 
the whole issue of the TSA, the Transportation and Security 
Administration, funding, mostly because we see a lot, almost 
all, of the budget being spent on the airports; and yet under 
the jurisdiction of that, of course, is quite a few other areas 
including rail security. And given what we see happen in Madrid 
just in the last week, obviously that is a hot topic, and there 
are questions about what are we doing as a Nation to protect 
ourselves in mass transit and on rail systems. And I think you 
only have about 2 percent of your total request going towards 
some of that.
    The other issue, of course, is also what are you doing in 
the port system? And the last area of concern are the new 
regulations or the discussion going on about just what type of 
civil employment employees within your Directorate actually 
have. And I will ask those questions. But I hope you will 
address or give us some idea of the outline that you see with 
respect to hire and fire and some of the nontraditional 
grievance procedures that employees under your direction might 
have.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    Does the Ranking Member Mr. Turner have an opening 
statement?
    Mr. Turner. Yes, Mr. Chairman. Thank you.
    Secretary Hutchinson, welcome. Good to have you with us 
once again. We are all very much aware that we are meeting here 
less than a week after the devastating explosions in Madrid 
that killed 200 and injured over 1,500 rail passengers, and our 
thoughts are still and our hearts go out to those victims and 
their families. It is again a reminder of how vulnerable we all 
are no matter where we may live around this globe.
    It appears from all information I have heard, and you, I am 
sure, can verify this, that Al-Qa`ida was the culprit in this 
brutal attack. And it also, I think, serves as an ominous 
warning sign once again to us and this country that we must be 
ready and prepared to deal with whatever may come next to our 
people. You would have thought maybe that we wouldn't need a 
reminder, obviously we are 2-1/2 years after September 11th of 
2001, but it did strike me as somewhat disturbing when I looked 
at the House Budget Committee's proposal that Chairman Nussle 
is laying out that reduces the President's budget request for 
homeland security by some $887 million over the next5 years. 
Many of my colleagues, all of the Democrats on this committee, 
wrote to Chairman Nussle yesterday urging him to reverse those 
cuts, and, in fact, call for increases, in spending for 
security for the American people.
    Many of those areas where we urged additional funding 
clearly fall under your umbrella, Mr. Secretary and your 
Department, of course, has about 60 percent, I think, of all 
the employees of the Department of Homeland Security.
    It is clear we have made progress in the last year in 
border and transportation security, and I commend you on your 
efforts and your leadership, Mr. Secretary, but there are some 
concerns that I want to raise with you and hope you will have 
the opportunity to address them in your statement.
    In light of the attacks in Madrid, I think it is important 
for us to focus renewed emphasis upon rail security. As you 
know, we have 140,000 miles of train routes in this country, 
500 Amtrak stations, and 500 major urban transit operators. Ten 
million trips are made on trains and subways every day in these 
United States.
    While the TSA requests 5.3 billion for next fiscal year in 
your budget request, only 147 million, as I read it, or less 
than 3 percent of the total, is dedicated to modes of 
transportation other than airplanes. This striking disparity 
indicates to me that we are not placing enough emphasis on 
trail, trucking, buses, ferries, and other forms of 
transportation that clearly represent vulnerabilities.
    I recognize that the Department has a $50 million grant 
program outside of TSA for rail and transit security, but 
estimates of what is truly needed across the country range 
upwards of $2 billion. That includes funding for items such as 
sensors, communications equipment, security cameras, which I 
understand you feel constitute the right approach to rail and 
transit security. This area obviously has not been a core 
concern of the Department nor of the Congress, and I think this 
must change.
    You mentioned during an interview this week that perhaps we 
need to make greater investments in this area, and I certainly 
agree. And I hope you will share your thoughts with us on what 
additional efforts you believe the Department needs to make 
beyond what may be in the President's budget to do a better job 
of security transit systems.
    Beyond rail security, I am concerned about other 
transportation issues. The TSA budget for next year is an $892 
million increase over the current level, and yet almost all of 
this increase is devoted to airport screening operations. 
Funding is flat, for example, for air cargo screening and 
technology development, and there appears to be no new 
initiatives in this critical area. Air cargo only undergoes, as 
we all know, random searches which are often conducted by 
shippers whose security practices are not regularly verified by 
the Department. I think it is important for us to come to 
grips, and perhaps if you could help us on this, give us some 
date by which you feel we will be able to screen all of our 
cargo that travels on passenger planes with us every day.
    Another issue that gives me concern is the current pace of 
installing these radiation portals at our Nation's major border 
crossings. These portals are very valuable in helping to detect 
weapons of mass destruction.
    Mr. Camp. The gentleman's time has expired.
    Mr. Turner. I will try to follow up, Mr. Secretary, on the 
other items I have in my remarks as we get into your questions. 
But thank you very much.
    Mr. Camp. Thank you.
    Are there any other requests for opening statements?
    Ms. Sanchez. Mr. Chairman.
    Mr. Camp. Yes. I would recognize the Ranking Member for her 
comment.
    Ms. Sanchez. Mr. Chairman, I just want to thank you for 
your recent pledge to work with me to schedule hearings that 
address budget details from the Border and Transportation 
Security Directorate component agencies, such as TSA and 
Customs and Border Protection. And I ask for unanimous consent 
to submit the letter from me to you with requests for that and 
your response. And there are copies for the members here of the 
committee to have, if they would like.
    Mr. Camp. Without objection, those letters will be 
submitted to the record.
    [The information follows:]


           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                          House of Representatives,
        Subcommittee on Infrastructure and Border Security,
                                     Washington, DC, March 10, 2004
Hon. Dave Camp,
Chairman, Subcommittee on Infrastructure and Border Security, 
        House of Representatives, Washington, DC.
    Dear Mr. Chairman: As we approach the upcoming 
authorization legislation for the Department of Homeland 
Security, the Democratic members of our subcommittee are 
concerned that the Select Committee has not yet heard from a 
sufficient number of witnesses to properly guide our 
authorization process.
    In light of this fact and pursuant to Rule 4 of the 
Committee Rules, we request that additional witnesses be added 
to the hearing of the Subcommittee on Infrastructure and Border 
Security tentatively scheduled for Wednesday, March 17 at which 
Under Secretary Hutchinson is expected to testify. We 
respectfully request that officials from the Transportation 
Security Administration, United States Coast Guard, Office of 
Domestic Preparedness, Bureau of Immigration and Customs 
enforcement, and Bureau of Customs and Border Protection be 
called to testify about the agencies' budget submissions. As 
provided by Rule 4, these witnesses could either appear 
following Under Secretary Hutchinson or on a separate ``day of 
hearing.''
    We realize this change could make for a long hearing, but 
it is our strong feeling that we must hear from these witnesses 
in order to get the information we need to make the proper 
choices as we go forward with the authorization process.
        Very truly yours,
                    Loretta Sanchez, Ranking Member.
                    Benjamin Cardin, Representative.
                    Norm Dicks, Representative.
                    Sheila Jackson-Lee, Representative.
                    Bill Pacrell, Representative.
                    Peter DeFazio, Representative.
                    Barney Frank, Representative.
                    Edward Markey, Representative.
                    Louise Slaughter, Representative.


           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                          House of Representatives,
        Subcommittee on Infrastructure and Border Security,
                                     Washington, DC, March 10, 2004
Ms. Loretta,
Ranking Member, Subcommittee on Infrastructure and Border 
        Security, Washington, DC.
    Dear Ms. Loretta: Thank you for contacting me with your 
request to invite additional witnesses to the Border and 
Transportation Security Budget hearing on March 17, 2004. As 
you know, on February 13, 2004, we sent a joint invitation 
letter requesting that Undersecretary Asa Hutchinson appear 
before our Subcommittee on that date and did not request any 
additional witnesses.
    As the head of the BTS Directorate, Undersecretary 
Hutchinson is accountable for the entire BTS budget request and 
can be expected to answer questions on the range of issues 
cited in your letter. Given the shortage of dates available to 
hold hearings, it is in the best interest of the Committee to 
move forward with our agenda and build budget and authorization 
components into those hearings. Your request for testimony from 
Customs and Border Protection, Immigration and Customs 
Enforcement, Transportation Security Administration, and the 
U.S. Coast Guard is duly noted and I pledge to work with you on 
upcoming hearings to make sure that these agencies are 
represented.
    I understand that there is concern that, due to the size of 
the BTS Directorate and the number of different programs, 
Members will not have sufficient time to address each issue. If 
time permits, please be assured that I will extend the 
questions for a second round during the hearing to give Members 
additional time to question the witness. Additionally, I will 
work with you to ensure that any outstanding issues are 
addressed in upcoming hearings.
    Again, thank you for your request. I appreciate your hard 
work and dedication as a Member of the Subcommittee and I look 
forward to working with you to move the agenda of the 
Subcommittee forward as we conduct oversight of the Department.
        Sincerely,
                                         Dave Camp,
                                                  Chairman.
                                ------                                


    Mr. Camp. And seeing no additional requests for time, I 
think we can proceed and welcome Under Secretary Hutchinson. We 
have received your written testimony, and ask that you would 
briefly summarize your statement in 5 minutes. Thank you for 
being here. You may begin.

   STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY, BORDER AND 
    TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Mr. Chairman, Congresswoman 
Sanchez, Ranking Member Turner, Congressman Smith. I am very 
pleased to be with you today and the other members of the 
committee.
    I want to, first of all, express my appreciation to the 
partnership that I believe that we have developed with this 
committee and with the Department on the ongoing security needs 
and assessments of where we are in Homeland Security. And we 
could not get the job done without your support, confidence, 
and counsel.
    I do believe that we have accomplished a great deal in the 
last year together in enhancing security in every arena, and 
the President's 2005 budget that is the subject of this hearing 
reflects the continued enhancements of security. It includes a 
10 percent increase overall in the Directorate of Border and 
Transportation Security.
    And if you look back on some of the things that we have 
accomplished that led to the 2005 budget, we have consolidated 
our border security efforts under one face at the border where 
Immigration, Customs, Agriculture are combined together into 
one effective organization. We have expanded the Container 
Security Initiative, the Customs-Trade Partnership Against 
Terrorism Program, protecting the supply chain in our supply 
routes of cargo coming into our country. We have enhanced 
substantially, as we have acknowledged, aviation security with 
increasing the effectiveness of the Federal air marshals, 
increasing the baggage screening, checking the names of master 
air crew lists, and additional measures in aviation security. 
We have implemented new technologies from US-VISIT to the 
SEVIS, which identifies and tracks foreign visitors and 
students, made those programs effective. We have enhanced air 
cargo inspections. We have increased the work on pursuing the 
illegal hiring of undocumented workers, and we have complied 
with the congressional requirements to develop visa security 
programs, which also gives the greater capability of looking at 
people who come into our country to make sure they do not pose 
a security risk.
    The 2005 budget builds upon these initiatives by increasing 
the CSI initiative, Security Container Initiative, by $25 
million, increasing the funding for the Customs-Trade 
Partnership Against Terrorism Program, increasing the amounts 
for the National Targeting Center that will allow us to do more 
effective risk assessments.
    One of the topics that has been mentioned today is what we 
are doing in rail and transit security, and as was mentioned, 
we certainly have looked at what has happened, the tragedy in 
Madrid. We obviously naturally look at what our vulnerabilities 
are in our transit systems here in the United States.
    And it is important to note that this is not the first time 
we have looked at transit security. We are working very 
aggressively in this arena in which we allowed $115 million in 
grants since May of last year for enhancing security in the 
transit arena. We have in combination with that issued $894 
million in Urban Area Security Grants, some of which of that 
money can be used for enhancing the security of our transit and 
rail systems. In addition, the 2005 budget, of course, builds 
upon that with a $1.45 billion amount being provided for the 
Urban Area Security Grants.
    But to give you a flavor for how we deal with this whenever 
we see an incident like what happened in Madrid, we, first of 
all, handle, from an operational standpoint, making sure that 
we are in communication and provide information to the major 
transit systems in the major cities. I personally talked with 
chiefs of police, the transit operators and got an 
understanding of what we are doing to enhance security, to make 
sure that is done; increase law enforcement presence, expanding 
the use of explosive detection equipment, public announcements, 
awareness as to the danger and what they can do to alert us to 
unattended packages. And many of them also instituted transit 
riders.
    We have through the TSA the Maritime and Land Security 
Division, which is working with the rail security and the 
transit authorities to enhance security through best practices, 
through pilot projects, and we are going to continue to build 
upon that. We look forward to working with you to see other 
means in which we can make sure that our transit riders and our 
passengers and the rail are secure, and that we continue our 
efforts to secure the borders of the United States.
    Thank you, Mr. Chairman.
    Mr. Camp. Well, thank you very much, Secretary Hutchinson.
    [The statement of Mr. Hutchinson follows:]

Prepared Statement of The Honorable Asa Hutchinson, Under Secretary for 
  Border and Transportation Secretary, Department of Homeland Security

    Mr. Chairman, Congresswoman Sanchez and Members of the 
Subcommittee:
    I am honored and pleased to appear before the Committee to present 
the President's fiscal year 2005 budget for the Border and 
Transportation Security (BTS) Directorate. I want to thank you for your 
strong support of BTS components, especially for the resources you 
provided in fiscal year 2004, and look forward to working with you in 
the coming months on our fiscal year 2005 budget.
    The $16 billion BTS request represents a 10 percent increase in 
resources over the comparable fiscal year 2004 budget, and reflects the 
Department's strong and continued commitment to the security of our 
homeland. The fiscal year 2005 budget is a $1.5 billion increase over 
fiscal year 2004, and it includes funding for new and expanded programs 
in border and port security, transportation security, immigration 
enforcement, and training.
    The Border and Transportation Security Directorate made great 
strides during the first year of operations. Over 110,000 employees and 
a budget of $14 billion were reassembled and brought under BTS. The 
Directorate was quickly established and successfully began operations 
on March 1, 2003--bringing together the legacy agencies and programs 
that now make up BTS--Customs and Border Protection (CBP), Immigration 
and Customs Enforcement (ICE), Transportation Security Administration 
(TSA), Federal Law Enforcement Training Center (FLETC), and the United 
States Visitor and Immigrant Status Indicator Technology (US-VISIT) 
program. Customs, border, immigration, transportation security and 
training activities have been rejuvenated under their new agencies, 
increasing the effectiveness of our dedicated employees. BTS continues 
to create new ways to enhance security by sharing information and 
intelligence and by coordinating operations within the Department among 
levels of governments, and horizontally across agencies and 
jurisdictions. Through the hard work of our dedicated and talented 
employees, America is more secure and better prepared than we were one 
year ago.
    In addition to the stand-up of the Directorate, we have achieved 
many results since our creation, including:
        <bullet> providing fused and enhanced security coordination 
        among our components and other federal, state and local 
        security providers and stakeholders, especially during 
        Operation Liberty Shield and the recent holiday season, 
        including the establishment of the Transportation Security 
        Coordination Center (TSCC) to coordinate intelligence sharing 
        and command and control activities for our national 
        transportation sector;
        <bullet> strengthening border security through the ``One face 
        at the border'' initiative, which is cross-training officers to 
        perform three formerly separate inspections--immigration, 
        customs, and agriculture--allowing us to target our resources 
        toward higher risk travelers;
        <bullet> expanding the container security initiative (CSI) and 
        Customs-Trade Partnership Against Terrorism (C-TPAT) to provide 
        improved security to the global supply chain;
        <bullet> instituting new cutting edge systems, like US-VISIT, 
        to identify and track foreign visitors and students, recording 
        the entry and exit of foreign visitors to strengthen our 
        immigration system;
        <bullet> safeguarding air travel from the terrorist threat by: 
        increasing the presence of Federal Air Marshals, establishing a 
        Federal Flight Desk Officer program, instituting 100 percent 
        checked baggage screening, issuing new regulations for enhanced 
        air cargo security, expanding the use of explosives detection 
        canine teams, checking names of master cockpit air crew lists, 
        and streamlining and training federal passenger and baggage 
        screeners deployed at airports across the Nation;
        <bullet> eliminating potential weaknesses in security by 
        suspending transits without visa (TWOV);
        <bullet> negotiating an agreement with the European Union with 
        respect to Passenger Name Record (PNR);
        <bullet> negotiating a memorandum of understanding with the 
        Department of State to ensure a coordinated and increasingly 
        effective visa issuance process; and
        <bullet> establishing a visa security office to provide 
        oversight and guidance on Section 428 of the Homeland Security 
        Act, including establishing two offices in Saudi Arabia to 
        review 100 percent of visa applications;
        <bullet> standing up a SEVIS tiger team to process foreign 
        students during the summer 2003 back-to-school season; and
        <bullet> effecting improvements in security capabilities, 
        capacity, training, and infrastructure.

Fiscal Year 2005 Budget Request
    The Fiscal Year 2005 budget for the Directorate builds upon the 
significant investments and accomplishments effected and in progress.

Strengthening Border and Port Security
    Securing our border and transportation systems continues to be an 
enormous challenge. Ports-of-entry (POE) into the United States stretch 
across 7,500 miles of land border between the United States and Mexico 
and Canada, 95,000 miles of shoreline and navigable rivers, and an 
exclusive economic zone of 3.4 million square miles. Each year more 
than 500 million people, 130 million motor vehicles, 2.5 million 
railcars, and 5.7 million cargo containers must be processed at the 
border and POE.
    In fiscal year 2003, CBP processed 412.8 million passengers and 
pedestrians arriving in the U.S.--327 million at land borders, 70.8 
million at international airports, and 15 million at sea ports. The 
fiscal year 2005 CBP budget seeks $2.7 billion for border security 
inspections and trade facilitation at ports of entry and $1.8 billion 
for border security and control between ports of entry.
    During fiscal year 2005, we will continue to strengthen our border 
and port security. The CBP budget seeks an overall increase of $223 
million to maintain and enhance border and port security activities, 
including the expansion of pre-screening cargo containers in high-risk 
areas and the detection of individuals attempting to illegally enter 
the United States illegally.
    Specifically, the budget includes an increase of $25 million for 
the Container Security Initiative (CSI) which focuses on pre-screening 
cargo before it reaches our shores, and an increase of $15.2 million 
for Customs Trade Partnership Against Terrorism (C-TPAT). C-TPAT 
focuses on partnerships all along the entire supply chain, from the 
factory floor, to foreign vendors, to land borders and seaports. As of 
late January 2004, nearly 3,000 importers, 600 carriers, and 1,000 
brokers and freight forwarders are participating in C-TPAT, surpassing 
the Department's original goal of participation of the top 1,000 
importers.
    As well as continuing development for secure trade programs, the 
budget also seeks an increase of $20.6 million to support improvements 
for the National Targeting Center and for multiple targeting systems 
that focus on people, cargo and conveyances. These systems use 
information from diverse sources to provide automated risk assessments 
for arriving international air passengers, shipments of goods to our 
country, and land border passenger traffic.
    The United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT) program's goals are to enhance the security of our citizens 
and our visitors; facilitate legitimate travel and trade across our 
borders; ensure the integrity of our immigration system; and respect 
the privacy of our welcomed visitors. US-VISIT represents a major 
milestone in our efforts to reform our borders. We deployed the first 
increment of US-VISIT on time, on budget, and met the mandates 
established by Congress, including biometric capabilities ahead of 
schedule. The budget seeks a total of $340 million in fiscal year 2005, 
an increase of $12 million over the fiscal year 2004 level for the 
program. As of late February, over 1.5 million foreign nationals had 
been processed for entry, generating 125 watch list alerts, and 
resulting in 51 criminals apprehended. The 2005 funding will further 
strengthen border security, and enable modernization of border 
management systems and capabilities. Specifically, funding will be used 
to expand the entry system to 115 land POEs, beyond the busiest 50 that 
will be covered by the US-VISIT program in fiscal year 2004. Funding 
will also be used to expand implementation of an exit solution at our 
air and seaports. Alternatives are being developed and tested, and will 
be implemented at 80 airports and 14 seaports in fiscal year 2004.
    Within the BTS component budgets, over $100 million is included for 
detection systems, a critical element in the war on terrorism. The CBP 
budget seeks an increase of $64.2 million to enhance land-based 
detection and monitoring of movement between ports, and $10 million to 
deploy and operate unmanned aerial vehicles. In order to protect the 
homeland against radiological threats, the CBP budget seeks $50 million 
for radiation detection monitors and equipment. The ICE budget request 
includes an increase of $28 million to increase the flight hours of P-3 
aircraft by 200 percent. In addition to providing vital detection and 
monitoring capabilities in the source and transit zones containing 
mountainous terrain, thick jungles and large expanses of water, the P-3 
provides an important capability for domestic airspace security 
missions.

Improving Aviation Security
    We have made great strides in rebuilding and reinvigorating of our 
aviation transportation security system. We have made significant 
investments in baggage screening technology--over $2 billion to 
purchase and install Explosives Detection Systems machines (EDS) and 
Explosives Trace Detection machines (ETD) to the nation's airports--and 
established a robust technology research and development program. We 
have deployed 45,000 federal passenger and baggage screeners at the 
Nation's airports, expanded the National Explosives Detection Canine 
Team program, and trained pilots to be Federal Flight Deck Officers.
    The fiscal year 2005 TSA budget seeks an increase of $892 million 
to enhance transportation security, a 20 percent increase over the 
comparable fiscal year 2004 level. Specifically, to strengthen 
interwoven, concentric layers of transportation security, the budget 
requests increases of $20 million for credentialing systems (i.e., 
Transportation Worker Identification Credential, Hazardous Materials 
transporters, and foreign student pilots); $25 million for operating 
the Computer Assisted Passenger Prescreening II System; and $113 
million to and improve screener performance through training and the 
deployment of information technology. A substantially improved air 
cargo security and screening program was implemented last year, and the 
$85 million request sustains funding to continue program enhancements 
and associated air cargo screening technology research and development. 
We are providing another $400 million for EDS equipment to improve 
airport operational efficiency.

Enhancing Immigration Security and Enforcement
    The ICE budget request of $4 billion, which is an increase of $300 
million over the fiscal year 2004 level, seeks to strengthen 
immigration security and enforcement. Comprehensive immigration 
security and enforcement extends beyond efforts at and between the 
ports-of-entry into the United States. It extends overseas, to keep 
unwelcome persons from arriving in our country, and removing persons 
now illegally residing in the United States. Pursuant to section 428 of 
the Homeland Security Act, and the Memorandum of Understanding between 
the Departments of Homeland Security and State, the ICE fiscal year 
2005 budget request of $14 million includes an increase of $10 million 
to support a new visa security unit (VSU). The BTS personnel stationed 
at overseas posts, including Saudi Arabia, will continue to work 
cooperatively with U.S. Consular Officials to enhance security and the 
integrity of the visa process.
    As announced on January 7, 2004, the Administration is committed to 
enhanced immigration integrity and border security. My Directorate will 
be working to implement a program that meets those goals, while 
benefiting the economy. Current ICE immigration enforcement programs 
and the enhancements in the fiscal year 2005 ICE budget request support 
and are consistent with a number of elements in this initiative, 
particularly worksite enforcement. Specifically, the fiscal year 2005 
request includes an increase of $23 million to more than double the 
number of investigations currently performed by ICE--providing an 
additional 200 investigators. With these resources, ICE will be able to 
facilitate the implementation of the President's temporary worker 
program initiative by establishing a traditional worksite enforcement 
program that offers credible deterrence to the hiring of unauthorized 
workers.
    The request also includes nearly a $100 million increase for the 
detention and removal of illegal aliens. Detention and Removal of 
illegal aliens present in the United States is critical to the 
enforcement of our immigration laws, and the requested funding will 
expand ongoing fugitive apprehension efforts, the removal from the 
United States of jailed illegal aliens, and additional detention and 
removal capacity.
    As part of our overall immigration enforcement strategy, ICE will 
continue to analyze data generated through the Student and Exchange 
Visitor Information System (SEVIS) and US-VISIT program to detect 
individuals who are in violation of the Nation's immigration laws and 
pose a threat to homeland security. The fiscal year 2005 budget 
requests $16 million to support these compliance efforts.
    Immigration fraud poses a severe threat to national security and 
public safety because it enables terrorists, criminals, and illegal 
aliens to gain entry and remain in the United States. An aggressive, 
focused, and comprehensive investigations and prosecutions program will 
detect, combat and deter immigration fraud. The $25 million included in 
the fiscal year 2005 budget will provide stable funding to the benefits 
fraud program by replacing funding previously provided through the 
Immigration Examinations Fee Account.

Building Departmental Infrastructure
    The fiscal year 2005 request includes an increase of $5 million for 
the Federal Law Enforcement Training Center to support our security 
program enhancements and capability sustainment. The FLETC not only 
serves federal client groups, but also provides training to state and 
local law enforcement providers. In addition, to enhance global law 
enforcement efforts, FLETC develops and offers a curriculum that 
includes international applications.

Conclusion:
    Our homeland is safer and more secure than it was a year ago, 
thanks in part to the dedicated and talented team we have in BTS which 
excels at coordinating and effecting cross-component activities. 
Through their efforts, and with the support of our partners in 
government and the public and private sectors, we will continue to 
substantially improve our nation's security. I thank the Congress for 
its support, which has been critical to bringing us to this point. With 
your continued support for our fiscal year 2005 budget, we will 
continue to improve the security of our nation.
    I am grateful to be here today to outline our efforts for a safer 
and more secure America. Thank you for inviting me to appear before you 
today, and I look forward to answering your questions.

    Mr. Camp. It is clear that this budget makes significant 
progress in smart security initiatives and programs. And I 
think implementing prescreening programs such as Nexus, FAST, 
and C-TPAT, which really help commercial truckers, travelers 
who cross the border frequently and with some regularity--I 
think that helps us move these low-risk cargo and travelers 
through ports of entry and allowing the resources to be applied 
to high-risk and sort of unknown.
    My question to you is can you just expand a little bit on 
these preclearance programs and what might be happening in 
terms of facilitating legitimate trade and travel in terms of 
your Department?
    Mr. Hutchinson. Well, the President's 2005 budget builds 
upon these initiatives that gives us more information in 
advance of when the cargo leaves the foreign ports. We have 
obviously implemented the 24-hour rule, which requires 
information of those cargo shipments before they leave the 
foreign ports.
    The budget provides for $25 million to enhance the National 
Targeting Center, and this is money that will allow us to more 
effectively take the information that we get, analyze it, and 
target those at-risk shipments that should have physical 
inspections. We first, of course, invest in nonintrusive 
inspection equipment, and if that points out some anomalies, we 
take it a step further with a physical inspection. And it was 
actually a $20 million increase for the National Targeting 
Center. It is a $25 million increase for the Container Security 
Initiative. We have continued to expand from the megaports to 
the second tier of ports where we can deploy our personnel to 
help screen with our foreign counterparts those shipments that 
might pose a risk to us.
    A big part of it is the partnership with industry, where we 
have 5,000 partners that have signed up to enhance their own 
security in the supply chain, and we are going to build upon 
that.
    Mr. Camp. Are you looking at ways to have greater 
participation in these programs, such as additional enrollment 
centers or facilities, expanding dedicated lanes, adding 
programs at other points of entry? And I think particularly in 
the container initiative, I know that there has been a great 
effort in adding as many ports as possible. If you could talk a 
little bit about the progress that you have made there, I think 
that would be interesting to the committee.
    Mr. Hutchinson. Well, we are working to expand the 
dedicated lanes for our FAST, which is Free And Secure Trade 
lanes, for those commercial trucks that have their drivers and 
their companies with background checks, with added security 
measures, where they could move through those dedicated lanes 
more rapidly. And we are expanding those lanes, Nexus on the 
northern border, and we are expanding that technology on the 
southern border as well. We will be continuing that rollout 
where you have infrastructure investment and the expansion of 
those lanes.
    In terms of the enrollment centers that you mentioned, we 
are trying to make those accessible to those that want to 
utilize this and make them efficient with our Canadian 
counterparts for the processing of those. I would be happy to 
get the specific number that we will be expanding to this 
coming year, but we are working very diligently to expand the 
number of those dedicated lanes.
    Mr. Camp. I think we are all very interested in the 
integration and coordination of the various marine functions 
that are in the Department of Homeland Security. Do you have 
some insight in how you are evaluating, developing the best 
strategy to maximize these resources? And does that include the 
acquisition of equipment, aircraft, detention machines, boats 
and that sort of thing?
    Mr. Hutchinson. That is very important. And in reference to 
our air assets, we have a Joint Procurement Committee in which 
the Coast Guard, the Customs, Border Patrol, or ICE look at 
acquiring additional air assets. They are to coordinate through 
that Joint Procurement Committee to make sure we are not 
duplicating. And if there is some ability to achieve greater 
leverage by bringing those procurement bidding process 
together, we will do that.
    But in addition, operationally, I just came back from the 
Arizona border, Congressman Shadegg's territory down there, and 
we rolled out our Arizona Border Patrol Initiative. One of the 
very important parts of it is having an integrator there that 
will integrate the coordination of the various assets that are 
used in patrolling the border. So we are doing operationally as 
well as from a procurement standpoint.
    Mr. Camp. There has been a great deal of discussion 
regarding the Homeland Security Department's plans to develop a 
regional structure for Customs and commerce issues. And I 
understand there has been an announcement of 7 to 10 regional 
directors positioned around the country to be points of contact 
in the event of an emergency. Is this a priority in the 2005 
budget, the regional structure? And how would those regional 
centers differ from Customs management centers that are 
currently in place?
    Mr. Hutchinson. Well, the Customs management centers, of 
course, are solely focused on the organizations of Customs and 
Border Protection. And, of course, the regional concept would 
be DHS, which would include all 22 agencies that would be a 
part of DHS, and would give a regional director, through acting 
on behalf of the Secretary, the capability to coordinate the 
operations of those various Homeland Security agencies, 
particularly in the event that there was an incident or a 
crisis to manage. But it would also help to facilitate 
communication with our State and local counterparts, carrying 
out exercises and training programs more efficiently.
    That program of regions was mentioned in the President's 
2004 budget. We continue to support that. We are working very 
diligently to make sure we have the right strategy and waiting 
to move forward with this before it is actually announced to 
the public and implemented. But we are getting much closer to 
getting a working model of that regional concept.
    Mr. Camp. I think the concern is that all Federal policies 
and laws be enforced uniformly in that kind of a system. Do you 
have any management controls or policies in place to help 
ensure that?
    Mr. Hutchinson. Well, the first goal would be to make sure 
that there is the national policy that is implemented, so you 
don't want to wind up having, you know, regional directors 
determining various regional policies in terms of implementing 
our national strategy.
    So it will be a national strategy that will have 
operational flexibility. And I think that might be what you are 
getting at, that they will have the flexibility to design 
operations consistent with what is needed in that particular 
region. And I think that is what has been somewhat missing in 
the past. So national policies, but regional flexibility in 
operations.
    Mr. Camp. Thank you.
    The gentlewoman from California, the Ranking Member, may 
inquire.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And again, thank you, Asa, for being before us.
    The first question I have for you has to do with the 
Transportation Security Administration, which has a mission of 
securing all modes of transportation, and the recent GAO report 
that talked about the lack of clarity or relationship between 
the transfer of all of this happening between TSA and 
Department of Transportation. In fact, quoting them, they said: 
The roles and the responsibilities of TSA and DOD and 
Transportation Security have yet to be clearly delineated, 
which creates a potential for duplicating or conflicting 
efforts as both entities move forward with their security 
efforts.
    And it also said: DOT and TSA have not yet formally defined 
their roles and responsibilities in securing all the modes of 
transportation.
    And in talking to staffs, we sort of get this, well, that 
is not ours, that is theirs. Everybody is pointing, but--a lot 
of it, but we are not getting answers about who is doing what. 
And I think it is reflective of the fact that we spend $92 
million a week, I think--is that true--a week on airport 
screening under TSA, but you only spent $115 million in all 
grants for public transit in the past year.
    So I would like you to give me your idea of where you are 
in defining the roles of what you are going to take care of and 
what DOT is going to take care of, or not, if they are not 
really the ones that are supposed to do that, and a breakdown 
of the spending and the priorities for securing the different 
modes of transportation. What is the plan that you have in 
mind? How far along are you with that plan? What are the 
negotiations you have with DOT? What can we anticipate; again, 
going back to this whole issue that Americans are asking, what 
are you doing about rail? And, you know, everybody reacts to 
the latest thing that happens. First it was the airports, then 
it was the rails. Who knows what it will be next. So we have to 
have a plan. And who is in charge is basically what I am 
asking.
    Mr. Hutchinson. We have a very good working relationship 
with the Department of Transportation. And certainly you could 
look at it that there is some areas of jurisdiction that you 
could say is covered by both. But I think the line of authority 
is very clear that the Homeland Security focuses on the 
security of our transportation system and is ultimately 
responsible.
    We work in conjunction in carrying out that mission with 
the capabilities of the Department of Transportation, and they 
in turn have the lead in the safety area, which is somewhat to 
be distinguished from the security aspect. But they are clearly 
complementary of each other, so there is that close working 
relationship. But as we have the responsibility for the 
security of our transportation system, we utilize the 
capabilities and the strengths of the Department of 
Transportation.
    Now, in reference to what our strategy is and the other 
modes of transportation, you are absolutely correct that there 
is much more invested in aviation security, substantially 
because Congress clearly defined exactly what we do in aviation 
security, and it was a comprehensive solution with 100 percent 
inspection of passengers and bags.
    Ms. Sanchez. Asa, I don't anticipate we are going to do 100 
percent inspection of anything really on our mass transit. We 
have just, you know, millions of riders every single day who 
use this. But I think America wants to know, we want to know, 
you know, what kind of priority do you have? When I looked at 
the $115 million that are given in grants, they are pretty 
open, and they are pretty wide in interpretation on what you 
can spend them on. So is there a grand plan?
    Are we just leaving it up to each transit system?
    And when we talk to the transit system, they are telling 
us, you know, we need tons more money for keeping this system 
safe, and it is really a funding problem. And, you know, I used 
to work in Transportation. I don't know what the fare box 
recovery rate is these days, but it is probably 40 cents or 
less on the dollar. So they really are strapped for money.
    So what is the grand plan? I mean, are you working with 
them on this? Are you working with Transportation? How do we 
know where to put the funds and what we need?
    Mr. Hutchinson. Well, we are absolutely working with them. 
And the grant money, I believe, has been effectively used and 
targeted with the transit authorities. It is very important 
that they help develop the solutions that is unique to their 
security requirements. The security requirements for the 
transit system in New York City might be different than the 
security requirements that are needed in Los Angeles or 
Chicago. And so there has to be some flexibility there.
    What we are doing is very substantial through the 
investment in biosensors, through the development of new 
security measures that minimize the risk and the damage that 
could come out, insisting upon assessments that are being made 
that are actively being conducted, and making security 
judgments and applications based upon those assessments.
    The TSA has a substantial investment in making sure that 
there is training. We have had exercises that brought together 
these authorities to look at our appropriate responses. But 
there is a different solution than what is in the aviation 
arena. As you pointed out, we have a very open system, and I 
don't think that the American public would expect to have that 
same solution of 100 percent screening. So we are looking at 
better ways of doing it, whether it is based upon intelligence 
applying a specific solution, maybe it is a screening response. 
The law enforcement presence is critical, and the explosive 
detection capability that we are building in these transit 
systems is an important response as well.
    Ms. Sanchez. Mr. Chairman, may I ask one real quick, quick 
question here, please?
    Mr. Camp. The gentlewoman's time has expired, but I will 
let her ask one more question.
    Ms. Sanchez. Any response to the fact that TSA's budget 
only puts 2 percent towards rail?
    Mr. Hutchinson. I think it reflects the distinction in 
solutions, and that is an appropriate investment. As we 
continue to development this, it might need to grow, but at the 
present time, when you are looking at not doing 100 percent 
screening, but partnering with the local governments and 
transit authorities, that is the right approach. And that 
amount does not include the hundreds of millions of dollars 
that have been invested in grants through the Office of 
Domestic Preparedness.
    Ms. Sanchez. Thank you, Mr. Chairman, for indulging me.
    Mr. Camp. The gentleman from Texas Mr. Smith is recognized 
for 8 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Hutchinson, I would like ask my first question on 
behalf of a Texas colleague, Pete Sessions, who is not a member 
of this committee, but who has very much of an interest in your 
answer. And the question is this: TSA apparently is refusing to 
help Dallas-Fort Worth Airport pay for explosive detection 
equipment on a 90-to-10 ratio as they are required to do by 
law. Apparently TSA is agreeing to pay on a 75/25 percent 
reimbursement ratio, but is not providing the 90 percent of the 
cost of that type of equipment. Why is that?
    Mr. Hutchinson. The original congressional mandate was 75/
25, and that is the basis on which our agreements were entered 
into and the plans were made. I believe it was the FAA 
reauthorization bill changed that formula to 90/10. Obviously, 
that is problematic because we have moved forward on a 75/25 
basis, and you are going to--we are not going to be able to 
cover as many airports with the on-line solution. And so we 
want to cover the maximum number of airports.
    So, obviously we will follow the law, but we are asking 
that Congress look at taking that back to a 75/25 ratio.
    Mr. Smith. I can understand the rationale, but if Congress 
does not change the law, then you would expect to reimburse at 
the stated 90/10 ratio.
    Mr. Hutchinson. We would fully comply with the law, 
whatever the law would require.
    Mr. Smith. Thank you, Mr. Secretary.
    And I would also like to ask you, and this is a tough 
question, and I am not sure that there is an easy answer, but 
is it possible, with the current funding levels, for you all to 
accomplish two goals? The first goal is to keep delays at the 
border of border crossers and the adverse economic impact that 
might accrue to a minimum at the same time you are protecting 
our homeland.
    Now, those are sometimes conflicted goals, and obviously 
the top priority is to protect the homeland. But is your 
proposed funding sufficient to accomplish those two goals?
    Mr. Hutchinson. Yes. The funding that we have at present 
and with the request in the 2005 budget allows us to balance 
those two objectives, using technology, new systems, to move 
commerce and add to security primarily through the US-VISIT 
program, that, as you are very familiar with on the southern 
border, we are having to comply with the requirement for the 50 
busiest land ports. And we are making appropriate adjustments 
from the airport solution to the land borders so we don't clog 
the borders, but we can add a measure of increased security.
    Now, we are also, through the FAST lanes, the sentry lanes, 
where you have the dedicated travelers with security background 
checks, with a laser card that can move through more rapidly, 
we are expanding the number of those dedicated lanes. 
Obviously, that is measured out as to how fast we go. I think 
we are at the right pace.
    Mr. Smith. Mr. Secretary, to follow up on that point I just 
made, Homeland Security and protecting our homeland, I 
understand that the Department of Homeland Security is 
considering exempting the holders of border crossing cards from 
the US-VISIT program. I could understand that if we had readers 
available at the border to check the identity of those using 
the border crossing cards. At this point we do not. Apparently 
they are used secondarily in certain instances. But how could 
we be considering exempting all those individuals from a 
security check if those readers are not in place?
    And let me add to that that I heard recently that there was 
a pilot program set up that did check the identities of those 
with the border crossing cards. And in this small pilot 
program, there were 350 individual whose IDs were not valid. So 
when you have that kind of a security gap, that kind of a 
security loophole, how can we afford to give a pass to 
individuals and not check their identities?
    Mr. Hutchinson. You are correct. We absolutely have to have 
the readers deployed. I would say that the border crossing 
cardholders are subjected to a security check. They have their 
biometrics taken; they are run through our terrorist data 
bases; they have background checks, and they are issued the 
card. But it is also important to read those cards when they 
come through to verify identity. The readers I have given 
direction to be deployed. It is not just the reader, but it is 
the system that backs that up, and those should be in place by 
the end of June.
    Mr. Smith. So you are saying, if I understand you 
correctly, that the border crossing cardholders will not be 
exempt from the US-VISIT program until there are readers 
available to check each one of those individuals?
    Mr. Hutchinson. That is correct. Now, I mean, timingwise of 
course we are making decisions really for the end of the year. 
And so any exemption for the border crossing cardholders from 
US-VISIT will be an end-of-the-year solution. And before then 
we will have the readers all in place.
    Mr. Smith. And the readers will not be used secondarily? 
They will be used for every individual coming through?
    Mr. Hutchinson. No. The readers will be deployed in 
secondary inspection. So if an inspector has a question about 
the identity of a border crossing card, it will be referred to 
secondary inspection.
    Mr. Smith. That still, in my mind, leaves a security gap 
when you are not checking each individual with a reader, as we 
saw from the pilot program. And I am just afraid that that is 
an invitation to some individuals to use a false ID to get into 
the country very easily.
    Mr. Hutchinson. You are certainly correct that the most 
ideal system would be to have those readers at every primary 
inspection point. It would just be really impossible to have 
the flow of people that is necessary at the ports of entry and 
to do it in a fast enough fashion under the present development 
of that technology.
    Mr. Smith. It seems to me that--and this may be a budget 
question. It seems to me that if you had the funds for a 
sufficient number of readers, you would not delay entry, but 
you would increase security. So is it a budget problem that 
we--is that the reason that we don't have enough readers?
    Mr. Hutchinson. Well, I am not sure we have enough readers 
for every lane at primary inspection. So it might partly be 
budget, but the primary issue, whether you are talking about 
US-VISIT or whether you are talking about the border crossing 
card readers, that means every person who comes through, you 
take their biometric. And if you added, you know, 60 seconds 
for everyone to take that and have it entered and read, it 
would just really exacerbate the lines.
    Mr. Smith. What percentage of the individuals coming across 
using the border crossing cards would you expect to check on 
that secondary level with the readers?
    Mr. Hutchinson. I think that it would be significant, and 
it would be sufficient, because the inspectors have got the 
best judgment. Well, first of all, you have got a photograph 
that you can compare to compare identity. If there is any 
question, they go into secondary. And second, I am sure you 
take a random sample and some verifications so that there would 
be a huge security value when those readers are in place.
    Mr. Smith. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Camp. I thank the gentleman.
    The Chair now recognizes Ms. Jackson-Lee of Texas. The 
gentlewoman may inquire for 5 minutes.
    Ms. Jackson-Lee. I thank the distinguished chairman.
    And to the Secretary, thank you very much for your presence 
here. And let me acknowledge my colleagues and particularly the 
presence of Congresswoman Donna Christensen.
    If I might, Mr. Secretary, just to offer a few remarks 
preceding my series of questions. I have filed most recently 
H.R. 3918, which is the Comprehensive Immigration Fairness Act 
of 2004. The focus is, I think, to deal head on with one of the 
singular issues that we are debating, and that is the question 
of the documentation or the existence of the illegal aliens in 
the United States. I think the administration and Congress will 
agree that the number varies from 8 million to 14 million. It 
may be just a little bit more.
    I am concerned as we begin this debate that we don't look 
very carefully at the President's good intentions, but maybe 
the down side of what he has now created, and that is a 
guesswork program, proposal, or announcement with no teeth or 
no actual, if you will, process engaged.
    And I raise this point because you indicated you have just 
come back from Arizona--most of us have focused our attention 
on the Arizona border, the California border, and the Texas 
border--with what I understand is a sizeable increase of 
individuals coming across the border who are now suggesting 
they are coming because of amnesty. There are two things that 
happen there. One, its jeopardizes their safety and their 
quality of life as well as those who are on the border. Two, it 
misrepresents what many of us have for many years advocated, 
and that is earned access to legalization which allows hard-
working, tax-paying individuals in this country to access 
legalization through a process. Mine in particular, 5 years of 
presence here, taxpaying, a job, no criminal record, et cetera. 
That is a defined steady process for access to legalization. 
Now we have representation that there is something called 
amnesty or guest worker program, and look what you have.
    My question to you is what--in addition to this border--
expanded border program that you are having, are there 
resources in fiscal year 2005 that you are directing towards 
this enhanced effort? Is this a temporary effort?
    And, two, on the policy question, will you engage with us 
on the fact that a represented amnesty program does nothing but 
undermine those who are already in line and also those who are 
here trying to access legalization and for a variety of reasons 
have not been able to do so?
    Let me throw two other questions out to you. The other 
again is again on the US-VISIT program. I visited that with 
Chairman Cox and others at Miami International, and, of course, 
I studied my Houston Intercontinental Airport in terms of its 
process and how it works. Certainly the staff that are there 
are very diligent. My question, of course, is that the US-VISIT 
program, about 360 million will go through land ports of entry. 
The question is that is five times more that goes through 
airports and seaports, and whether or not we have the resources 
to collect the data and then enforce it on the basis of that 
kind of travel.
    And the other point--and the last point tracks 
Congresswoman Sanchez's question. Certainly in the backdrop of 
the terrible disaster of Spain, my question is how we will 
design both policy and resources to look closely at some 
process, some method that answers the question of railway 
security, does not--I don't believe that we have the capacity 
to encompass every aspect of railway security, particularly 
both commercial and passenger. But my question to you is are we 
beginning to study this question because we have a real and 
serious problem? And I thank you for your presence here.
    Mr. Hutchinson. Thank you, Congresswoman. And, first of 
all, I would emphasize that the President's temporary worker 
program principles that were outlined is not an amnesty 
proposal. The President has made that absolutely clear. And 
from an old rule of law guy, I believe that it offers a new 
approach that is different than the immigration reform 
proposals in the past, and it would certainly increase the 
security of our borders and our Nation.
    Ms. Jackson-Lee. And I think, as you know, it is being 
represented as an amnesty program because it is not geared 
towards earning access to citizenship.
    Mr. Hutchinson. In reference to the apprehensions, I see 
across the border that they are declining, and there hasn't 
been any uptick as a result of any announcements. The only area 
that it has increased, and certainly a concern, is in the 
Arizona border arena where 40 percent of the illegal crossings 
occur in our Nation. And I think, though, that that is a 
reason, of course, for the Arizona Border Patrol Initiative.
    You asked about the resources. Those are built into the 
base, except for the technology that we are piloting there 
including the unmanned aerial vehicles. And there is a request 
in the 2005 budget to continue the exploring and piloting of 
UAV projects. And so that is an important part of the 
President's request.
    When it comes to rail security, we have done a great deal 
in that arena, and I think that is important for the American 
people to understand is that we didn't get a wakeup call last 
week; we were fully aware of what needs to be done in rail 
security; we have invested in that. It is a different system. 
We are going to continue to work in that. Intelligence is a 
very important part of it. The better our intelligence is, the 
more we can target our resources and our protective measures, 
and that really is critical when you are looking at a system 
that has been historically wide open. But we are doing much, 
and we will do more.
    Mr. Camp. Thank you, Mr. Secretary.
    The gentleman from Arizona may inquire for 5 minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Under Secretary, good to see you again. We enjoyed the 
same flight out from Arizona yesterday, and I want to thank you 
for coming to Arizona. I want to applaud you for the Arizona 
Border Control Initiative. I think it is a step in the right 
direction, and at least I would like to believe it is in 
response to our trying to point out to you the serious problem 
we have on the Arizona border. As you just noted, 40 percent of 
all of the traffic so far as the statistics show right now are 
coming across the Arizona border, and I appreciate your putting 
resources behind that initiative.
    I also want to thank you for Operation ICE Storm. I don't 
know if you have noticed the daily press in Arizona, but 
literally that has had a tremendous impact in terms of 
disclosing safe houses where coyotes are stashing human cargo 
and making neighborhoods unsafe and flaunting our law. And I 
appreciate that.
    I have a series of questions which I would like to get 
through before having to go vote. First, when originally 
announced, Operation ICE Storm was a temporary program that was 
to last, I think, until the end of this fiscal year. I know 
that a portion of the positions in Operation ICE Storm have now 
been made permanent; something close to a third of those 
positions have been made permanent. Do you know what the plan 
is for Operation ICE Storm as we go forward? Has a decision 
been made that it will end at the end of 2004, or is it still 
an open question?
    Mr. Hutchinson. Well, first of all, ICE Storm has been 
enormously successful, and for that reason we have continued 
the programs and folded it in as part of our ABC Initiative. 
The whole initiative will be evaluated October 1, and at that 
point we will see what adjustments should be made and what 
should be continued on a permanent basis. And I want to 
acknowledge that this whole initiative came about as a result 
of congressional education, including your own, invitations to 
the border, showing us what is needed there. So it certainly is 
in response to your efforts.
    Mr. Shadegg. Well, and the Secretary himself was down 
there, spent a day on the border with Senator McCain and 
Congressmen Colby and Flake and myself, and I would like to 
believe that was helpful as well.
    I believe you just answered this question, but I want to 
nail it down for sure. You have the funding for the ABC 
Initiative in your 2005 budget and adequate for you to proceed?
    Mr. Hutchinson. The answer is yes. But it is a very 
significant investment from a Department standpoint, and it 
certainly puts a strain because of that investment. We find the 
money to make it work because we have the challenge that is 
there, but it is supported in the 2005 budget in every respect.
    Mr. Shadegg. I am going to put these next two questions to 
you jointly and let you kind of pick amongst them.
    Well, first let me tell you, I understand that the Hermes 
450 UAV has been selected for the program. I would like to sit 
down with you at some point in the near future and discuss that 
particular selection. I did go look at the Predator in 
operation and tried to make a separate visit to see a second 
UAV that was available. I am extremely pleased that you are 
going to put UAVs on the border, but I would like to be 
educated on why the Hermes was picked over its competitors.
    Two questions. One, a lot of people say America isn't safer 
today. Some would likely contend that. I would like to hear 
your comments on why you believe that, kind of the highlights; 
if you were convincing somebody America is safer, what you 
would point to as kind of the top, ``Here are the most 
important things we have done to make America safer in the last 
year.''
    And, second, with specific reference to biometrics, do you 
not believe that at some point in time there is going to be a 
need to, in fact, make biometrics a part of the entry process 
for every visitor?
    Mr. Hutchinson. Yes, I think biometrics is our future for 
border entry, but also for our foreign counterparts. I think 
there has been a huge wakeup call even in Madrid as to border 
security. And not just the United States is moving to 
biometrics, but internationally we are trying to move together. 
We are moving much more rapidly and setting the pace.
    But going back to Congressman Smith's questions, we are 
limited now, but as technology develops, we will be able to do 
more, and we will probably be able to do it eventually at the 
primary points. But we are not there yet.
    Mr. Shadegg. And the ``not there yet,'' I guess from your 
answer, is it takes too much time.
    Mr. Hutchinson. Time, absolutely. Time and the technology 
has not developed sufficiently enough, but there are ways that 
we can do more. Technology is continuing to develop in this 
way. So that is our objective, and we are balancing commerce 
and security, but every step of the way we are enhancing 
security.
    You asked--and thank you for the question--as to why 
America is safer. First of all, first the United States VISIT, 
US-VISIT, that allows us to have the biometric capability of 
confirmation that has allowed us to prevent over 100 criminal 
aliens trying to enter the country illegally that very well 
could have been a terrorist.
    By the fact that we have increased our border capability in 
terms of security, more surveillance, more sensors, also in 
terms of aviation security, clearly we are more secure with the 
layered approach that we have. The fact that the American 
public feels confidence in what we are doing even in a time of 
heightened alert, they continue flying because they believe in 
what we are doing.
    So all across the board from aviation to the organizational 
changes that we have made that enhance security at our borders 
where it is a--the communication with our State and local 
counterparts, sharing intelligence. When we had the incident in 
Madrid, intelligence was immediately out to the people that 
needed to have it. So I could go on, but obviously there is 
much more that needs to be done, but a substantial amount has 
been accomplished.
    Mr. Camp. Thank you. The gentleman's time has expired.
    With unanimous consent, the gentlewoman from the Virgin 
Islands may inquire for 5 minutes.
    Mrs. Christensen. Thank you, Mr.Chairman, and I realize 
time is of the essence. I want to ask two questions, and I want 
to thank you for the response that I get from the bureaus that 
are in the Virgin Islands when we run into difficulty and need 
some adjustments. But I want to talk about the continuing 
efforts to secure the borders of the U.S., as you mentioned in 
your opening statement, on the territorial areas.
    The Virgin Islands represents about 200 miles of pretty 
much unprotected border, and I would like to know what my 
constituents and I can expect in the 2005 budget to help us to 
secure those--that open border, where a recent trip to the 
Virgin Islands showed some increases in contraband and people 
coming through as you tighten up on the western side.
    But I also want to ask a question about my Pacific 
territories. You may know that we have a special relationship 
with three independent governments in the Pacific known as the 
Freely Associated States, Palau, Marshall Islands and the 
Federated States of Micronesia, and under our relationship with 
them, they have the right to freely migrate to the U.S. and its 
territories. We also have many defense obligations to maintain 
the security of that region. Collectively these 3 governments 
cover some 3 million square miles of ocean that can be used as 
points of entry into the U.S.
    Does the Department of Homeland Security have personnel and 
resources devoted to the challenges of homeland security 
presented to us by our unique relationship with these three 
governments? Are we working with them and providing them with 
assistance in border security, immigration and the maritime 
security issues?
    So basically the question is for the Virgin Islands and 
these Pacific independent governments, are we on the radar 
screen? Is there funding in the 2005 budget to help with our 
issues?
    Mr. Camp. Mr. Secretary, I am going to have to recess the 
committee for a couple minutes. I know the Chairman is on his 
way back, and we will continue when he comes back, but there is 
a vote on. So we will recess for just a few minutes.
    Mr. Hutchinson. I will get you a better answer then.
    Mr. Camp. I see Mr. Cox has just walked in. We will not 
recess the subcommittee, and Mr. Cox will take the gavel.
    Mr. Cox. [Presiding.] Mr. Secretary, please give me a 
response.
    Mr. Hutchinson. First of all, I am grateful for our 
partnership, and always the information that you have been able 
to provide me, and for the cooperation we have had with the 
Virgin Islands on security issues. And the funds that are 
available through our grant programs, it is my understanding 
that those apply to the territories just like the State and 
local governments, and so there is a funding mechanism for the 
security steps that can be taken, obviously based upon the 
security needs and the security plans that are in place.
    And then in reference to the vast territories and the vast 
ocean that separates us by distance, those--you know, the 
United States Coast Guard has jurisdiction in those areas, 
Customs and border protection, and they are certainly more 
limited in those far-away areas, but they do have 
responsibility. We are trying to make sure that we fulfill our 
duties in reference to those. I would be happy to get you more 
specific answers, but we do certainly consider that as an 
important area of our responsibility.
    Mrs. Christensen. Thank you. And for the Virgin Islands, we 
have been taking great advantage of the grants that are 
available, but we don't have a Border Patrol in place, and we 
feel that that is a real critical piece of homeland security 
not just for the Virgin Islands, but for the Nation, as we are 
a thoroughfare for people coming from mainland China and the 
Middle East as well.
    Another question about airports. There are some airports 
that have that they have had some MOUs with the Department of 
Homeland Security that would help them in terms of funding to 
do the renovations and put whatever was needed in place to be 
able to meet that 100 percent baggage screening, and I don't 
want to be specific, but some of those airports are not 
receiving any funding to assist them, and they are going to 
have a lot of difficulty in meeting that requirement. What can 
you tell us in terms of how are those airports going to be able 
to do that 100 percent screening without your support, or do 
you have some support to give them?
    Mr. Hutchinson. Well, it is a challenge to the airports. 
You know, we put the equipment in place, but they want to be 
able to put it into a system and have to make renovations to 
accomplish that. We call it the on-line system. And that is the 
purpose of the LOIs, or the letters of intent, that allow that 
funding, and whether it is 75/25 or 90 to 10, we have to 
prioritize those projects. And we are working through the 
highest priority, the volume, the largest airports, and as soon 
as we are able budgetwise and systemwide to do it, we will move 
to the other airports that are certainly in need of this as 
well.
    Mrs. Christensen. Mr.Chairman, I would like to get a report 
up of which are the airports that have been designated as top 
10 or what the priorities are, because as you know, there is 
some airports that don't seem to be on the priority list. By 
nature of their being large hubs and the number of planes that 
go through there, it should be on the priority list, and they 
don't seem to be getting that funding.
    Mr. Cox. Well, Secretary Hutchinson, if you will consider 
that a formal request from Mrs. Christensen and respond to it, 
we would most appreciate it.
    Mr. Hutchinson. We would be happy to.
    Mr. Cox. The Chair would recognize himself for questions 
for just a moment and add my welcome to those of the other 
members of the committee. We appreciate your coming before us 
once more this time to talk about your budget, which is going 
to have grown from $14 billion to $16 billion. The 10 percent 
1-year increase that you are proposing is substantial, but 
particularly are large in comparison to what is occurring 
elsewhere throughout the executive branch, what Congress is 
looking at for the next fiscal year's budget. So we are 
preparing to entrust you and the Department with a great deal 
more resources not only than you have had, but that anyone else 
is going to be getting, because the mission of homeland 
security is important, and that is why this hearing is 
important. We want to find out both through this dialogue and 
also with our follow-up questions exactly where that money 
might go and what our priorities ought to be.
    I want to ask you a very broad-brush question about your 
Directorate and also the Directorate of IAIP. The information 
that we are now gathering in the wake of the Madrid bombings is 
starting to paint a picture that we have seen before. Just as 
before September 11th, we had some information on some of the 
people that ultimately were involved in bombing the World Trade 
Center and Washington and killing people in Pennsylvania 
midflight. Here in this case in Spain, we also now have in 
custody people seemingly complicit or perhaps the planners of 
this bombing, planners or participants in it, who were within 
our grasp beforehand, and they seem to be connected to alQaeda. 
It suggests the importance of connecting the dots.
    This one connection that we have been able to draw in 
particular between Jamal Zougam and the 9/11 planners, Yarkas 
who is in custody, is particularly disturbing. Of course, 
Zougam's apartment had been searched by Spanish authorities in 
August of 2001, August 10th, just a month before the September 
11 bombings, and what we discovered in his apartment were, 
first, phone numbers of other Al-Qa`ida suspected members in a 
cell that was purportedly organized by Yarkas, who is now in 
custody in Spain for allegedly planning the September 11th 
bombings. We discovered a tape in his apartment that showed 
jihadists in Dagastan. So obviously this international 
connection to international Wahhabists, to Al-Qa`ida, to the 
very same people that we have been tracking all along rears its 
head again.
    It suggests to me, and I am just one Member, albeit the 
Chairman, that the resources that we might devote in Spain to 
hardening the train system, to putting armed guards everywhere 
and trying to search everyone who goes on to the train and so 
on, as expensive as that would be, would not be as well spent 
as resources connecting these dots, because we had some of 
these people--we almost had them, and had we connected the dots 
just a little bit better, we might have stopped this. Zougam 
was not one who was indicted by Judge Garzon, so he was at 
large, but we put him on our terrorist list here, and that 
group is on our terrorist list, and it is somebody who we meant 
to be keeping track of.
    So I want to ask you as you take these enormous new 
resources, 10 percent bump in a $14 billion, how much of them 
can we expect will be devoted to this effort of connecting the 
dots? How much of it should go on in your Directorate, and 
alternatively, how much of it should go on in IAIP?
    Mr. Hutchinson. Well, the analytical part of intelligence 
should be conducted in IAIP. That is their responsibility for 
the analysis. We are a customer of theirs. We are also a source 
for them. Where we fit into the intelligence picture is that 
through the 110,000 employees, the inspectors, the agents in 
our arena, we work informants, we collect intelligence, and we 
provide that immediately to our intelligence counterparts in 
IAIP for their analysis. And so we are both a supplier of 
intelligence as well as a customer of their analysis. And it 
has been very effective, and it certainly improves every day.
    I think your point is that--I certainly agree with--that we 
have to invest in intelligence, and that analysis pays huge 
dividends to us. We obviously continue having to recognize that 
there is going to be not a perfect system, and so we have to 
have the layered security that will complement and supplement 
their efforts.
    Mr. Cox. Thank you. My red light is on. We have a brief 
opportunity for further questions if any Member would like to 
do so.
    Ms. Sanchez. Yes, Mr.Chairman.
    Mr. Cox. The gentlelady from California Ms.Sanchez is 
recognized.
    Ms. Sanchez. Thank you, Mr.Chairman.
    Mr. Secretary, yesterday you announced the Arizona Border 
Control Initiative, and you stated that the initiative is 
designed to achieve control of the Arizona border by deterring, 
detecting, arresting and prosecuting all cross-border illicit 
trafficking by combining the assets from several agencies, 
Immigration and Customs Enforcement, CBP, Transportation 
Security Administration and other Federal agencies.
    You also indicated that the initiative would transfer 260 
Border Patrol agents and CBP officers permanently or 
temporarily. I think you said 200 per minute and 60 temporary 
transfers.
    My questions are how long will this initiative last? Is the 
260 figure an annual amount, or is it just cumulative over 
whatever time period you are thinking of doing this?
    And the real reason I am asking this is maybe for you to 
identify if you have a plan that tells us where these 260 
agents are coming from. The biggest concern that I have is that 
we saw a tripling of agents up on the northern border because 
of the requirements of the Patriot Act, but those all came from 
the southern border predominantly, meaning it left open areas 
like Laredo very, very understaffed in Texas. And so the 
question is where are you going to get these agents from? Where 
are you moving them from? And, you know, what is that going to 
do to our Border Patrol?
    Mr. Hutchinson. The initiative will go through October1, 
when it will be evaluated and a determination made then whether 
it needs to be beefed up, modified, what adjustments should be 
made at that point.
    Ms. Sanchez. It starts from now to October 1st?
    Mr. Hutchinson. Correct. And it will be--for example, the 
200 agents will be in place gradually between now and June1, 
where they will be fully deployed. You are correct that 60 of 
those are BORSTAR agents that are temporary assignments, but 
200 Border Patrol agents are permanent assignments to the 
Arizona initiative. These come from not other areas that were 
diminishing, but based upon the new resources that Congress--
capability Congress has given to us, it will be balanced 
between experienced agents and new agents that will be going 
out into the field.
    So this is a great opportunity for us, and we will enhance 
those as necessary to get the job done.
    Ms. Sanchez. So it is a combination of experienced agents 
and new agents. Where are these experienced agents--they are 
still coming off from--you are taking them from somewhere.
    Mr. Hutchinson. Right, but the FTEs or the actual positions 
are new allocations that have been given to us. We will fill 
those in part by experienced agents that will be back-filled in 
another area with new graduates that will go out in the field.
    Ms. Sanchez. So, in other words, in the fiscal year 2004 
budget, we have new positions for Border Patrol, and those 
new--those full-time equivalents will be where you are taking 
these 260 from basically?
    Mr. Hutchinson. That's correct.
    Ms. Sanchez. Will the increased resources be placed along 
the Arizona-Mexican border--with increased resources being 
placed along the Arizona-Mexican border, don't you think that 
it is going to push some of these smugglers to other crossing 
routes? I mean, we experienced that in the California side, 
where we clamped down heavily and ended up pushing everything 
out to Nogales and some of the other areas.
    Mr. Hutchinson. Well, and that is the--hopefully this is 
the last squeeze by effective border enforcement in California, 
and, more effective in Texas, it has squeezed and pushed the 
traffic organization to Arizona. So we are addressing that last 
frontier there.
    But secondly, we recognize as we increase our efforts 
there, there will be the possibility that they are going to try 
to try different routes. So we are going to be flexible, 
measure that, and if they do try new routes in different areas, 
we will have the flexibility to respond to that. So we are 
going to look for that squeeze and if it does, in fact, happen.
    Ms. Sanchez. And my last question with respect to the 
Arizona issue is that the Federal Government--you are currently 
placing vehicle barriers to protect some of the Department of 
Interior lands where we see smugglers regularly drive across 
them. Has the placement of the barriers been completed? And do 
you intend to pay for additional barriers along the 200-plus 
miles that we have between Arizona and Mexico that is also DOI 
land?
    Mr. Hutchinson. Yes. That is a very effective tool. We 
continue to look at that, particularly in protecting the 
Department of Interior lands. I will say that Larry Parkinson 
was there with me representing the Department of Interior. They 
are a strong partner. They are adding personnel as well, and 
that capability with the other agencies really adds to the 
initiative, but we are continuing to look at the deployment of 
those type of barriers.
    Ms. Sanchez. And I see that my time is up, so thank you, 
Mr.Secretary, and thank you, Mr.Chairman, for allowing another 
set of questions.
    Mr. Cox. The gentlelady's time is expired.
    Does the gentlelady from the Virgin Islands have further 
questions?
    Mrs. Christensen. Thank you. I just wanted to ask one 
question and then make a point.
    The Department of Homeland Security, your Directorate 
obviously has a great commitment to port security, but the 
budget request of $566 million is less than--$566 million less 
than what the Coast Guard estimates ports will have to spend to 
improve their security.
    So could you just talk about how you are going to ensure 
the security of our ports when we are so far short of what the 
Coast Guard has estimated we need to have in place?
    Mr. Hutchinson. Well, the estimate that is being referred 
to is one estimate of security enhancements that very well will 
be needed in our ports. This is a shared responsibility, and so 
it is not our judgment that we ought to fund 100 percent of all 
of the port security enhancements. We do a share, but also the 
private sector has a responsibility as well, and so they are 
investing substantially to complement what we are doing in 
security.
    Coast Guard's 2005 budget includes $1.75 billion for ports, 
waterways and coastal security. So there is many layers to it 
in addition simply to the grant funding that we are putting 
in--.
    Mrs. Christensen. So you are saying that between the 
private sector, the Coast Guard and your Directorate, we will 
come close to approaching what is really needed?
    Mr. Hutchinson. We will certainly come closer by that 
combined effort. You know, and those figures are rather rough 
estimates as to what is needed. Clearly, more is needed. We 
pick up some of the slack, but the private sector does as well.
    Mrs. Christensen. And since we are talking about budget and 
your budget needs, are you satisfied that what is in your 
budget is sufficient for your contribution to this effort?
    Mr. Hutchinson. I think it reflects a very good balance as 
to the shared responsibility.
    Mrs. Christensen. I just wanted to go back to the 
territories that are freely associated with the United States 
just for a moment to say that these are independent countries 
in a free associated agreement with the United States. So they 
don't necessarily fall within our grant programs and will 
require some additional work with them to adjust those 
agreements and to make the assistance available to them as they 
are a part of the larger U.S. family and provide entry into our 
country.
    Mr. Hutchinson. I will be happy to work with you on looking 
at that more closely.
    Mrs. Christensen. Thank you.
    Mr. Cox. The gentleman from Massachusetts is recognized.
    Mr. Markey. Thank you very much, and welcome back, Mr. 
Secretary. Thank you for coming.
    I sent a letter to Secretary Ridge to request information 
about the Department's efforts to strengthen rail security, and 
I would like to take this opportunity to ask you a few 
questions about this pressing homeland security issue. Does the 
Department of Homeland Security intend to establish voluntary 
security guidelines that transit operators may or may not 
choose to implement? Will the Department of Homeland Security 
require that operators implement specific security enhancements 
in response to the vulnerability of public transportation 
systems to attacks by terrorist groups?
    Mr. Hutchinson. Could you give me an example of what you 
are speaking of?
    Mr. Markey. In terms of?
    Mr. Hutchinson. Well, when you say voluntary security 
guidelines versus mandatory security guidelines.
    Mr. Markey. Will there be a duty for the transit operators 
to implement standards established by the Department of 
Homeland Security, or it will be left totally to the discretion 
of any of these railroads or transit systems, subway systems in 
the United States as to whether or not they will enhance 
security? Which is the policy which the Department will choose 
in order to increase the security on the rails of the United 
States?
    Mr. Hutchinson. We have the authority to implement 
mandatory security requirements. We are not in a position to do 
that now. We are choosing to make sure that we have the right 
assessments, the right judgments of what security measures are 
in place, and that we evaluate it in the right way. That is an 
option that we would certainly look at whenever--if we 
determine that--if the private sector or our transit partners 
are not moving rapidly enough when they have the capability to 
do so, and that when we have the right judgment as to what that 
security measure should be.
    Mr. Markey. And what is your guideline for finishing the 
assessments of what is needed and what your recommendations 
will be? What have you laid out in your deadlines?
    Mr. Hutchinson. I believe that the assessments are 
substantially complete in terms of the review of the security 
requirements. We have, in fact, deployed a substantial number 
of security measures in accordance with the assessments that 
have been done, and we will continue to review those.
    Mr. Markey. So will the assessments be done in the next 
month or 6 months?
    Mr. Hutchinson. I will have to get back with you on the 
specific time frame as to how many have already been completed, 
which ones remain to be done.
    Mr. Markey. So, for example, just, you know, put a little 
bit of a highlight on it, as you know, both the Fleet Center in 
Boston and the Madison Square Garden Democrat and Republican 
conventions will be situated on top of transit systems. So I 
know there will be some security put in place in those two 
venues, but I think the whole country deserves to know that 
there is some nonvoluntary system that is being put in place.
    And towards, you know, exploring this a little bit further, 
given the funding shortfalls that many of these transit systems 
are facing anyway, how would we expect them, short of having 
larger grants from the Federal Government, to implement safety 
guidelines?
    Mr. Hutchinson. Well, and that is exactly the reason you 
want to be careful about doing the mandatory requirements, 
because, for example, Amtrak, not exactly financially wealthy, 
and we want to make sure if you put requirements on, that they 
are appropriate, and that they meet the security needs, and 
that they are manageable. That is also the reason, of course, 
we gave $115 million in rail security grants last year, and we 
will continue through the urban area security grants to have 
more funds available.
    Mr. Markey. Are you going to increase your request for 
fiscal year 2005, for this coming fiscal year; are you going to 
increase your request for additional security funds for transit 
and railroads across the country?
    Mr. Hutchinson. Well, the budget is, of course, as 
submitted. Obviously if there is a determination that more 
funds are needed and appropriate, then that determination will 
be given, but at this time there is not any plan that I am 
aware of that will increase--make a budget amendment request.
    Mr. Markey. So in the aftermath of the terrible tragedy in 
Spain, your administration has yet to reevaluate whether or not 
there should be an increase in funding for railway security 
built into this year's budget?
    Mr. Hutchinson. I think the fair characterization would be 
that even prior to the tragedy in Spain, this administration 
effectively evaluated what we are doing in rail security, got 
ahead of the curve in the assessments, in the investment, and 
submitted a budget that anticipated what needs to be done in 
that area. As we get additional intelligence, we will continue 
to evaluate that.
    Mr. Markey. But as of this moment, you are convinced that 
the work that you had already done has provided sufficient 
funds or has sufficient funds budgeted that will deal with the 
security issues that you have identified on transit in the 
country?
    Mr. Hutchinson. It is a very appropriate start. More needs 
to be done. We are aggressively pursuing that, looking at the 
right requirements and completing all of the assessments, and 
then also continuing to invest in those security measures.
    Mr. Markey. I would recommend honestly we double the 
security; $115 million is not going to be enough.
    Have radiation portals been installed in all ports of U.S. 
entry? That would be my final question.
    Mr. Hutchinson. The radiation portals have been installed 
in 2004 in 408 locations. Radiation portal monitors in 528. 
Number, specifically, the units that have been deployed, in 
2005, we will deploy an additional 465 portal monitors and 206 
radiation isotope identification devices, and that will 
continue until there is 100 percent coverage.
    Mr. Markey. So are you talking about the personal radiation 
devices there, or are you talking about the actual portals 
that--.
    Mr. Hutchinson. The personal radiation devices will be 
5,000 of those deployed this year, 1,000 next year. So what I 
was speaking of will be the large portal monitors.
    Mr. Markey. Mr.Chairman, I see the red light is on.
    Mr. Cox. I appreciate it--.
    Mr. Markey. Thank you, Mr.Secretary.
    Mr. Cox.--your attention, and I recognize the gentlelady 
from California.
    Ms. Sanchez. Great. Thank you. God, it is so great when 
other people don't show up. We get more lines of questions.
    I wanted to talk about just the discomfort that is 
happening among a lot of the employees in your Directorate. As 
I mentioned earlier, you are probably in charge of about 
110,000 of them, and I know that the border officers, for 
example, are nervous about the new tasks that they are being 
asked to do in one phase of the border initiative, because 
former Customs inspectors, for example, are required to know 
the details about immigration and agricultural laws, but they 
only have minimal training in these additional areas.
    So one of my questions was, you know, are you monitoring 
the uncomfortableness of your employees, because, of course, we 
want them to do a good job; and what are you hearing from them, 
because many of us are hearing that they are just having a hard 
time with this?
    I also wanted to have you talk a little bit about the 
latest plans for your new pay and personnel system. The 
budget--for example, your budget asks for $100 million to 
design a new personnel system that appears in its current form 
to take away existing rights and guarantees afforded to these 
employees, and in DHS it would eliminate across-the-board 
annual raises and allow department managers to decide a 
worker's annual raise based solely on performance. And while in 
theory that sounds good, I am worried that maybe it gives 
managers a little bit too much unchecked authority. So I want 
to hear about that.
    And in the light of actually these front-line personnel 
putting their lives on the line in some cases every single day 
that they go out and do their work, isn't $100 million a lot to 
spend on a pay system when maybe we could be using it on 
salaries for front-line personnel, considering we have so many 
shortages going on?
    Mr. Hutchinson. Well, in reference to the overall morale, I 
think it is very good. Any time there is uncertainty or change, 
that causes some discomfort, and that is understandable.
    We have worked very hard to get information quickly to the 
employees. Secretary Ridge, myself and other leaders of the 
Department have conducted numerous town meetings where we have 
heard from them. They have raised issues, and so many of them 
have to do with some of the disparity in pay for doing the same 
work for the different 22 agencies that came together, and you 
mentioned the $100 million. I will have to check to make sure 
because that is really in a different directorate, but it was 
my assumption that some of that would be for helping to 
accomplish some of the pay disparity. So I think there is more 
to it than simply what is going to be needed from a technical 
standpoint.
    One of the great motivators and morale boosters that the 
inspectors had was the implementation of US-VISIT, because they 
saw new technology, new capability because of their new 
mission, and it has really been a boost for them in the work 
that they do.
    Ms. Sanchez. Can you tell me, speaking about US-VISIT, have 
we been able to catch a terrorist yet with US-VISIT? I know we 
have gotten a lot of criminals, but have we gotten the 
terrorists? I mean, because it is an elaborate program, and as 
you know, we have only done one small portion of what is going 
to take a lot of funds and a lot of effort, and to some people 
who have been talking to me about all this cyber situation, 
that, you know, it is a pie in the sky. So have we caught a 
terrorist yet from it?
    Mr. Hutchinson. That is a very, very important question, 
and let me address that. We have not, and that should not be 
the measure of US-VISIT. US-VISIT was mandated by Congress 
before 9/11, and the original design of it was not to catch 
terrorists, but was to have an effective entry-exit system, to 
give integrity to our immigration system.
    We have the added security benefit because we can deter, 
detect terrorists and criminals that might come in. So I think 
that it has to be measured by a much different standard going 
back to the integrity of the system as well as the deterrent 
value and obviously the checks that we have whenever we bring 
the people in.
    Ms. Sanchez. And last let me ask you about a new provision 
in the personnel regulations that would essentially allow an 
employer to reassign a worker from one part of the country to 
the other without any input from the worker.
    Why are we taking away the employees' options for 
reassignment? I mean, a lot of them have families, and they 
prefer a particular area. Why is that so--why is there such a 
great deviation in that from our regular personnel system that 
we have in other departments?
    Mr. Hutchinson. Well, first of all, the personnel 
regulations were put out for the purpose of getting comment, 
and employee comment will be very important in the evaluation, 
determination of which direction we go.
    But in terms of reassignment, when you are dealing with 
responding to higher threat levels, emergencies, national 
security issues, we have to have the capability to effect 
reassignments without having to do collective bargaining or 
discussions prior to that.
    Now--so that is the logic and concern in that arena, but we 
obviously want to be sensitive to the employees' concerns. I 
don't think there have been any instances where, you know, they 
have been redeployed without the appropriate communication and 
safeguards being in place.
    Ms. Sanchez. Thank you, Mr.Chairman. I see that the red 
light has come on.
    Mr. Cox. Thank the gentlelady.
    I want to thank Secretary Hutchinson for being here with 
us. As you can see, we have a vote on the floor. You have 
gotten some questions today about rail, naturally in light of 
Madrid, and I know that in particular the cooperation that IP 
has had with America's railroads and our public transit 
authorities lies without your direct responsibility. It is 
outside your directorate. But I want to give you an opportunity 
to answer generally the question of whether there is going to 
be an international lessons learned effort focused on Madrid 
and whether the Department of Homeland Security will be 
inferring from what we learn in Madrid ways to update our 
protocols for rail, particularly passenger rail in America?
    Mr. Hutchinson. Certainly it requires us to look very 
closely at it. One, I have communicated with the Ambassador 
from Spain offering our technical assistance and having a 
transportation team that will go--security team that will go 
over and look at this together. I think that there will be some 
dialogues with all of the European countries on enhancing rail 
security, what more we ought to do, cooperation, best 
practices. And so there is going to be an increased 
concentration on that.
    From our standpoint I think we were, again, ahead of the 
curve, have done a great deal, but the immediate reaction was 
let's see what more we can do, because clearly that is 
something that the terrorists have used very effectively in 
Spain.
    You know, we are working closely with our colleagues in 
infrastructure protection and coordinating. We have some very 
substantial efforts going on right now in terms of additional 
steps that can be taken, evaluation, some more aggressive than 
others, policy decisions that will have to be made in that 
regard. But we expect that this will be a very robust effort, 
combining our efforts in border transportation security with 
what they are doing in IAIP.
    Mr. Cox. I am very pleased to hear that, and we thank you 
very much for the time and help that you provided to the 
committee this morning.
    The Chair notes that some Members may have additional 
questions for our witness, which they may wish to submit in 
writing. Without objection--I am sorry. Mr.Turner is here. I 
want to recognize the Ranking Member. I didn't realize that you 
had come here, and we have made heroic efforts to make sure you 
had another opportunity. So the Ranking Member is recognized--
Ranking Member of the full committee, the gentleman from Texas, 
is recognized.
    Mr. Turner. Thank you, Mr.Chairman. I will be brief, 
because I think we have 10 minutes before the vote concludes.
    Mr.Secretary, we have talked before about radiation 
portals. You have received to date $206 million to purchase and 
install these radiation portals at our ports of entry. You have 
asked for $43 million for the next fiscal year. By my 
calculation it will take another $247 million to install 
radiation portals at all of our border crossings, rail hubs, 
airports, et cetera. I am disappointed that that is not in the 
President's request, and I just wanted to know if the Congress 
could secure the support to get the additional $247 million, 
would you be able to complete the installation of these portals 
more rapidly, and particularly would you be able to do it prior 
to the fourth anniversary of the 9/11 attacks, which is, I 
think, the date by which it will occur now based on the funding 
that is being requested--the rate of funding that is being 
requested?
    Mr. Hutchinson. I will be happy to look very carefully at 
the time line for completion of 100 percent deployment. I have 
before me the deployment schedule for the radiation portal 
monitors, the radiation isotope identification devices and the 
other radiation detectors, and we have in 2004 a plan to deploy 
528 radiation portal monitors. This is a very aggressive 
schedule. In 2005, we have 165 that are scheduled to be 
deployed as well as 206 isotope identification devices. So I am 
happy to look at where that leaves us as far as the final 
completion. I will report back to you, but that is what is 
scheduled for 2004 and 2005 in deployment.
    Mr. Turner. It just seems to me it would make common sense 
to try to get that job done quicker, and if you would look at 
that and see what it would take. Obviously I want to be sure 
that if we push for the additional funding, that you can expend 
it in a more rapid fashion.
    Mr. Hutchinson. I think that is certainly a relevant 
consideration as to what could be our procurement and 
deployment schedule.
    Mr. Turner. You know, there is no question that if we don't 
do this faster, that by September of 2005, the fourth 
anniversary of 9/11, we still won't have our southern borders 
protected, nor all of our rail hubs, nor all of our airports, 
nor all of our smaller ports of entry. And if we plan to do it, 
if that is the goal, it seems that that would be a prudent and 
wise investment.
    Thank you. Thank you, Mr.Chairman.
    Mr. Cox. I thank the gentleman.
    And for the final time, I want to thank Secretary 
Hutchinson. Your willingness to stay with us throughout the 
morning and the afternoon is very much appreciated.
    The record will remain open in this hearing for 10 days for 
Members to submit open questions and to place their responses 
in the record.
    Mr. Cox. There being no further business, I want to thank 
all the subcommittee members who were here during the hearing. 
The hearing is now adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


         Questions Submitted for Under Secretary Asa Hutchinson

          Questions Submitted by the Hon. Lincoln Diaz-Balart

    Thank you for coming before our panel today. In your testimony you 
list the elimination of potential weaknesses in security by suspending 
the Transit Without Visa (TWOV) program as one of the Department's 
successes.
    While I believe the suspension of the TWOV program may have in fact 
increased security, I still remain concerned about its counterpart, the 
International to International (ITI) program.
    I believe that your office has realized the significant economic 
impact that the cancellation of this program had on South Florida as 
demonstrated through the temporary relief provided through the 
reopening of the satellite transit lounge at MIA. However, this 
temporary solution has only partially mitigated the situation and has 
not provided a sustainable solution.
    During a recent CODEL to Miami we engaged DHS officials and staff 
from Washington, D.C. and Miami on this issue. It was my understanding 
that the Department would be releasing guidelines for a new version of 
the ITI program this month. However, through our conversations in 
Miami, it appeared that there was a lack of communication between DHS, 
MIA, and the private sector companies directly involved in this 
process.
    Under Secretary Hutchinson, has there been additional communication 
among all of the parties involved, including the private sector? If so, 
do we still expect to see this new program rolled out this month, and 
if we do, has it been modified from its original draft, which did not 
reflect the concerns of the airport or the private industry experts?
    Answer: To clarify this issue, prior to August 2003, there were two 
transit programs available to travelers. The former Transit Without 
Visa (TWOV) and International-to-International (ITI) programs allowed 
an alien to transit through the United States without a nonimmigrant 
visa while en route from one foreign country to a second foreign 
country with one or two stops in the United States. Under the TWOV 
program, a passenger seeking to transit through the United States was 
admitted as a transit passenger by a DHS inspector and departed the 
Federal Inspection Service (FIS) area. A TWOV passenger was permitted 
to make one additional stop in the United States.Under the ITI program, 
the ITI passenger was inspected by a DHS inspector but was not admitted 
to the United States and did not leave the secure FIS area.
    On August 7, 2003, the Secretary of Homeland Security and the 
Assistant Secretary of State for Consular Affairs published regulations 
suspending the TWOV and ITI transit programs. The suspensions were 
based on specific, credible intelligence that certain terrorist 
organizations had identified these programs as a way to gain access to 
aircraft without first obtaining a visa in order to: (1) take over the 
aircraft to use as a weapon of mass destruction, or (2) to simply cause 
damage to the aircraft; or to abscond during their layover in the 
United States in order to gain illegal entry to the United States. In 
August and September 2003, the DHS Border and Transportation Security 
Directorate (BTS) conducted field visits and held meetings with airline 
industry and the Departments of State (DOS) and Transportation (DOT) on 
the possible reinstatement of a security-enhanced transit program. On 
September 22, 2003, the public comment period concerning the suspension 
of the TWOV and ITI programs expired.
    DHS took the seventeen comments (one duplicate) received, including 
those from the State of Florida and Miami International Airport, 
regarding this proposed rule into consideration when formulating the 
new Air Transit Program (ATP).
    BTS and CBP have met with carriers and industry representatives to 
solicit their opinions on the program. DHS and other agencies have 
worked to formulate a proposal for the new ATP which is currently under 
review within the Administration.

              Questions Submitted by the Hon. Mark Souder

    1. What is the strategic vision for the Directorate of Border and 
Transportation Security? Do you believe you have adequate resources to 
accomplish that vision in the near and long term? If not, what 
additional resources do you require to meet your goals?
    Answer: The strategic vision for the Directorate of Border and 
Transportation Security is to be ``a unified and innovative enforcement 
team, working as one to isolate terrorism Working in partnership with 
our components and with the U.S. Coast Guard, we will:
        <bullet> Promote new security ideas and opportunities;
        <bullet> Balance security with civil liberties and free trade;
        <bullet> Develop a unified and engaged BTS team within the 
        broad DHS effort;
        <bullet> Streamline operational and administrative procedures; 
        and
        <bullet> Build coalitions and partnerships.
    Our fiscal year 2005 budget requested 8 additional FTE and funding 
to support the initial requirements of the staff of the Office of the 
Under Secretary. As the organization of the Directorate and the 
Department evolves, we will work within the Administration to request 
additional resources when necessary.

    2. I understand that in some locations where both the Bureau of 
Customs and Border Protection and Bureau of Immigration and Customs 
Enforcement operate, they maintain independent fleets of aircraft. 
Considering the overlap along mission lines to interdict ``weapons of 
mass destruction'', illicit narcotics and illegal migrants, has any 
thought been given to ``co-locating'' these air assets? The obvious 
benefit of such an arrangement would be: elimination of two separate 
hangars and equipment plant; two separate maintenance and fuel 
contracts; two separate aircrew training and certification programs, 
and so forth. Do you have any philosophical disagreement with the 
merits of ``colocating'' ICE and CBP air assets?
    Answer: In fiscal year 2005, the air and marine assets within ICE 
and CBP will be consolidated within CBP. Efforts are underway to manage 
that consolidation to ensure the maximum operational and cost 
efficiencies.

    3. Late last year I met with CBP Commissioner Bonner to discuss the 
status of a special unit of Native Americans called the Shadow Wolves. 
In the legacy Customs Service they worked to detect narcotics smuggling 
along the Arizona border within the Tohono O'Odham Indian Reservation. 
Upon creation of the Department of Homeland Security they were 
transferred from ICE to CBP. During my discussion with Commissioner 
Bonner, he told me that the Shadow Wolves would continue their 
traditional mission.
    <bullet> Can you update us on the current status of the Shadow 
Wolves?
    Answer: The unit remains intact and follows the Customs and Border 
Protection (CBP) mission of preventing terrorists and terrorists' 
weapons from entering the United States.
    <bullet> What steps have been taken to ensure that they Shadow 
Wolves preserve their unique identity and the vital mission of 
tracking/interdicting illicit narcotics?
    Answer: There have been no changes to the CPO's mission of 
tracking/interdicting illicit narcotics. Narcotic seizures by the CPO's 
continue to be turned over to U.S. Immigration and Customs Enforcement 
(ICE).
    <bullet> During a Native American conference sponsored by Customs 
and Border Protection last year, during one of the breakout sessions, 
there was some discussion given to expanding the Shadow Wolf concept to 
other Native American reservations with a border nexus. Has this 
concept been expanded yet?
    Answer: The Shadow Wolf/CPO concept is still being explored and 
discussed amongst the tribes and Border Patrol Sectors. In the interim, 
the Border Patrol and some of the tribes are continuing to work on 
Integrated Border Enforcement Teams (IBET) and joint operations. 
Cooperation continues with quarterly meetings to discuss issues, 
concerns, and strategies.

    4. I have visited the Air and Marine Operations enter (AMOC) in 
Riverside, California. That facility receives radar inputs and 
correlates intelligence and data on air traffic from virtually every 
conceivable source, and is one of the most impressive facilities I have 
visited in the government. AMOC is a ``critical'' center, unique in 
that it is the only facility in the federal government with all these 
capabilities under one roof.
    <bullet> Why aren't other BTS flight activities communicated and 
de-conflicted through AMOC? I understand, for example, that CBP 
aircraft frequently fly ``low and slow'' along the border, without 
notifying the AMOC. As a result, the AMOC scrambles ICE aircraft to 
intercept the suspicious aircraft, which results in needless 
expenditure of taxpayer money.
    Answer: During Liberty Shield operations, Office of Air and Marine 
Operations (AMO) used AMOC to coordinate flying operations of 
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CBP). This effort was built upon AMOC's existing 
coordination with the DoD and FAA. This effort was a step in the right 
direction for coordination of DHS law enforcement aviation operations. 
A more permanent concept of operations is being developed in concert 
with the Department's Aviation Management Council, to minimize the 
possibility of intercepting other agency's aircraft. AMOC indeed has 
the capabilities to support and enhance other DHS/BTS air activities. 
As the primary command and control facility for the AMO, AMOC truly has 
the ``big picture,'' integrating multi-source radar inputs, the 
capability to track ``Blue Forces,'' and streamline coordination with 
multiple interagency partners in the course of their respective 
missions. AMOC has access to FAA flight plans, aircraft registration 
and air movement data, as well as specifically designed law enforcement 
databases. Recent modernization funding will allow AMOC to create a 
common operating picture that encompasses a wide portion of the Western 
Hemisphere.
    To enhance the tracking of ``friendly'' aircraft AMO is developing 
a new SATRACK capability. Servers, with the ability to process all 
SATRACK formats, are being incorporated into the AMOC's radar display. 
Once installed and operational it will be as simple as inputting the 
tracking code, specific for each aircraft, from any agency into the 
server. This upgrade will allow the AMOC to follow and de-conflict CBP 
aircraft that frequently fly ``low and slow'' along the border.
    <bullet> I understand that AMOC sends its radar picture of the 
National Capital Region to a new inter-agency airspace security office 
called the National Capital Region Coordination Center. I understand 
the AMOC is the only source for this and there isn't a backup. Are you 
reviewing this?
    Answer: AMOC is currently a single point of transmission; the air 
picture and data feeds in the NCRCC are slaved from the AMOC's system. 
We are reviewing this, and are studying the addition of high-end 
servers, communications suites and supporting telecommunications 
infrastructure to support the Air and Marine Operations functions for 
the National Capital Region, which could be developed as an independent 
facility and serve as a limited back-up capability for the AMOC. 
However, the NCRCC as a whole has four different agencies supplying/
piping radar and communications data into the facility.
    <bullet> Are you considering any technological or personnel 
upgrades for the facility to enhance its capabilities against narcotics 
trafficking, alien smuggling and securing restricted airspace?
    Answer: The AMOC has currently been funded to upgrade its servers. 
This upgrade will increase its capacity to accept all the available 
radar feeds nationwide, some 400 plus radars. Additionally, software 
has been developed and tested to provide AMOC with radar data from all 
20 FAA Air Route Traffic Control Centers (ARTCCs), to include the 
correlated flight plans and air movement data from the 20 ARTCCs.
    FAA Terminal Approach Radars will also be integrated into the AMOC. 
Advanced communications suites have been procured to replace the 
current aging and inadequate communications console. AMO is studying 
the feasibility of a satellite based communication infrastructure that 
will dramatically increase nationwide radio coverage and save the costs 
of expanding and maintaining hundreds of ground based radios.
    AMOC personnel have served as a primary operations entity at the 
NCRCC since the facility opened in January 2003. Fifteen Full time 
Equivalents (FTE) on AMOC's existing Table of Organization have been 
permanently reassigned to address staffing the NCRCC. The backfill/
permanent return of these FTE to their original locations will be 
addressed within future resource allocation initiatives.
    Now that AMO and AMOC have moved from ICE to CBP, the staffing 
issues will be revisited in a broader context as part of the transition 
process. We anticipate that the staffing decisions will be concluded by 
the end of the transitioin process on September 30, 2005.

    5. Within DHS, Mr. Hutchinson, you have more armed law enforcement 
employees under your command than anyone else. Inherent in that 
distinction are significant management, policy and oversight 
responsibilities to promote accountability, competent weapons use and 
maintaining a ``zero tolerance'' for excessive force incidents. 
Terrorists and narcotics cartels have demonstrated their lethality all 
over the world. DHS agents and officers deserve to be sufficiently 
equipped and empowered to address this threat. It will not suffice to 
be ``out-gunned'' during an encounter with terrorists or drug 
traffickers, as the Los Angeles Police Department discovered during the 
North Hollywood bank robbery.
    <bullet> What are your plans to standardize a system of centralized 
inventory management for BTS weapons, to prevent the kind of 
accountability issues recently experienced by FBI?
    Answer: We have engaged in collaborative efforts within the 
Department, the Federal Government, and industry to develop the best 
practices and procedures in asset management. With the implementation 
of eMerge2, the Department will standardize the accountability of all 
assets, to include the weapons inventory. The Department is finalizing 
the Management Directive for Personal Property Management that defines 
the policy regarding the accountability and physical inventory 
requirements for personal property, including weapons. The policy 
includes the requirement for an annual physical inventory and 
reconciliation of all firearms. Also, the Department is conducting a 
pilot program to evaluate the accountability and effectiveness of using 
radio frequency identification to track and monitor firearms.
    <bullet> How will your system of accountability mesh with the 
remaining armed employees of DHS, such as those in the Secret Service?
    Answer: The Department established a Personal Property Management 
Council and consolidated various personal property systems, procedures 
and policies over the past year. With the implementation of eMerge2, we 
will migrate our asset records to one software solution to provide 
total asset visibility that will enable us to effectively reduce the 
cost of managing the Government's personal property while increasing 
accountability. The procedures and systems put in place will be 
deployed throughout the Department.
    <bullet>What are your plans for a new ``use of force'' policy? When 
will this new policy be published?
    Answer: The DHS use of force policy was signed and effective July 
2004. It was developed by a committee which had representation from all 
DHS law enforcement components.
    <bullet> Does your fiscal year 2005 funding include any initiatives 
to ann your employees with a ``standard'' Department firearm?
    Answer: No. There are no additional funds requested in the fiscal 
year 2005 budget above that which is contained in each component's 
base, to recapitalize a standard DHS firearm. The DHS Commodity Council 
for Weapons and Ammunition is analyzing Department-wide requirements to 
determine more efficient and effective strategies for the acquisition 
of this commodity area. Their initial effort identified a strategy to 
acquire known DHS requirements for a family of pistols under a 
specification agreed to by many of the organizational elements in the 
Department. On August 24, 2004 the Department awarded two contracts for 
handguns that can be accessed by all DHS organizational entities. 
Additional categories of weapons and ammunition are being analyzed by 
the Commodity Council to determine the need for strategic sourcing.
    6. I understand BTS Officers frequently pursue vehicles and vessels 
loaded with contraband that refuse to stop, and perform airspace 
security missions against small and slow aircraft. These high-risk 
enforcement operations can easily escalate to a situation where lethal 
force is required. What legislative assistance do you need to indemnify 
your officers involved in this type of situation?
    Answer: We must unquestionably prepare and support our law 
enforcement personnel for the potential use of lethal force in their 
day to day environment, as well as for the possible but unintended 
results of their actions. The law enforcement officers, tasked by their 
organization and the nation to prevent or mitigate to the best of their 
ability a terrorist strike, will be faced with the options of allowing 
the terrorist to strike where and when chosen with planned maximum 
devastation, or applying the use of lethal force against the assailant. 
These Officers, acting within the scope of employment and in compliance 
with Departmental policies and procedures, should be protected from 
unwarranted lawsuits and liability. To this end the Department is 
exploring possible options, similar to other agencies, that would grant 
immunity or provide indemnification in certain circumstances.
    7. The fiscal year 2005 budget for CBP includes $10 million for 
Unmanned Aerial Vehicles (UAV). You announced the Arizona Border 
Control (ABC) Initiative yesterday in Tucson. I understand your 
directorate will test the Hermes UAV. I also understand your 
directorate tested a Predator UAV in the Southwest last fall, which 
culminated in several interdictions, seizures and arrests. Will the 
requested funding be used for UAVs capable of fulfilling the multitude 
of BTS missions?
    Answer: The requested funding is specific to border security 
operations for which CBP is the lead agency. The funding will provide 
for further testing and evaluation of UAVs in general, and the needs of 
BTS and other DHS components will be considered during this project.
    What will be the concept of operation (CONOP) for this new 
resource?
    Answer: The pilot project we are conducting is designed to help us 
develop a CONOP over the life of the program. The intent is to operate 
in both interdiction and intelligence gathering missions to evaluate 
VAV technology in such roles. Specific CONOPS will be developed based 
on lessons learned during this test and evaluation.
    At the conclusion of this latest test, will UAVs become a permanent 
tool within BTS to combat illicit narcotics smuggling and migrant 
activity?
    Answer: Once the evaluation is completed, we will have a better 
understanding of how UAVs may be integrated into our border security 
operations on a long-term basis. The pilot program will determine the 
best type of platforms and sensor packages to use, where they will be 
most beneficial, and for what specific roles they are best suited.
    8. In the establishment of DHS, it was recognized that counter-
narcotics is an important and necessary mission for the Department. In 
the Homeland Security Act, the Department was organized to include a 
dedicated Counter-narcotics Officer on the Secretary's staff who is to 
ensure adequate focus of homeland security resources to the counter-
drug mission. This Counter-narcotics Officer is also designated as the 
U.S. Interdiction Coordinator (USIC) and reports to the Director of the 
Office of National Drug Control Policy (ONDCP) on the overall national 
interdiction effort. As the Under Secretary of BTS, you oversee some of 
the major agencies involved in the counternarcotics effort.
    <bullet> In your view, how is the set up of one individual with two 
lines of authority working?
    Answer: The counternarcotics officer (CNO) serves in multiple roles 
as ONDCP Director of Intelligence, as United States Interdiction 
Coordinator, and as DHS counternarcotics officer. Given the division of 
CN responsibilities between BTS and other DHS entities, the DHS CNO 
serves a useful and valuable role in coordinating CN matters between 
BTS and those other non-BTS DHS agencies. The CNO also serves an 
extremely valuable function in providing recommendations to the DHS 
Secretary about development of departmental CN priorities, especially 
as they impact BTS agency responsibilities. The addition of the USIC 
position to the CNO has provided an opportunity for that office to 
serve as a bridge to non-DHS agencies on CN that would otherwise not 
exist; a bridge that has been extensively employed on behalf of DHS 
during the start up of the Department.
    <bullet> What is your relationship with the Counter-narcotics 
Officer?
    Answer: I meet regularly with the CNO, and two of my staff are 
located in his office These actions help ensure the closest 
coordination possible on counternarcotics issues.
    <bullet> Do you feel DHS has the resources necessary to adequately 
attack the current drug threat while being vigilant to other DHS 
responsibilities?
    Answer: The Administration and Congress have provided excellent 
support to the BTS components in support of all threats to homeland 
security. Many of the capabilities that provide border and 
transportation security are used to support the counter-narcotics 
mission. For example, the same resources used in the Container Security 
Initiative (CSI) enhance the ability to prevent and detect importation 
of illegal narcotics. Additional border patrol and CBP officers, as 
well as ICE agents perform their work in a multifaceted fashion, 
finding illegal substances and goods and looking for links between 
narcotics-related crime and terrorism. The same sensor systems and 
platforms that perform border security, like our AMO and Border Patrol 
aircraft, also detect and interdict illegal narcotics. In support of 
these continuing efforts, our fiscal year 2005 request included a 
number of systems that are multi-dimensional and support both missions: 
$28 million for increased AMO P-3 flight hours to interdict narcotics 
in the source and transit zone as well as fly CAP over cities during 
heightened alert periods, $64 million for Border Patrol surveillance 
and sensor technology; $25 million for CSI; $20 million for targeting 
systems enhancement which help identify shipments requiring inspection; 
$15M for Customs-Trade Partnership Against Terrorism (C-TPAT) which 
strengthen the supply chain; $10 million for development and testing of 
UAVs; and $340 million for US-VISIT, which identifies travelers, some 
of which have warrants for outstanding narcotics charges. All of these 
initiatives received fiscal year 2005 appropriations at the level of 
the request.

Questions Submitted by the House Select Committee on Homeland Security, 
                             Majority Staff

Criminal Intelligence Collection and Analysis
    1. How do BTS agencies analyze their collection of criminal and 
other intelligence, as well as share it within BTS or with other DHS 
and Federal agencies? What is the role of IA/IP? Do the BTS agencies 
and IA/IP have interoperable communication and data systems?
    Answer: The Directorate of Border and Transportation Security (BTS) 
prepares a Daily Operations Report each day of the week. The BTS 
distributes the reports to Federal, state, and local law enforcement. 
The report encompasses significant operational events involving the 
Border and Transportation Security Directorate (BTS). Items include 
submissions from the Bureau of Customs and Border Protection (CBP), the 
Bureau of Immigration and Customs Enforcement (ICE), the Federal 
Protective Service (FPS), and the Transportation Security 
Administration (TSA). Submissions include noteworthy Homeland Security 
items such as the arrest or removal of terrorist organization members, 
financiers, and operatives. The report provides biographical 
identifiers such as names, dates of birth, passport numbers, 
nationality, associates, etc. State and local law enforcement agencies 
have used this information to supplement their intelligence/homeland 
security operations. The report also highlights events, efforts, and 
trends concerning airport screening and organized criminal activities 
such as narcotics and alien smuggling. A report typically is from five 
to seven pages and includes a list of acronyms and definitions.
    Information sharing is one of the critical mission areas that the 
Department of Homeland Security (DHS) has set as a priority for better 
preparing the homeland. The DHS Office of Information Analysis (IA), in 
conjunction with other DHS entities, prepares warning products and 
distributes them to federal, state, local, tribal, major city, and 
private sector officials. These products, which include both Homeland 
Security Information Bulletins and Threat Advisories, allow DHS 
officials to communicate threats and suggested protective measures to 
regions and/or sectors of concern, within each threat level. 
Additionally, unclassified information is shared through a daily 
Homeland Security Operations Morning Brief and the weekly joint DHS-FBI 
Intelligence Bulletin. The Office of State and Local Government 
Coordination also coordinates bi-weekly conference calls with all of 
the Homeland Security Advisors in all the states and territories to 
help relay important departmental information as well as respond to 
queries from advisors. The Department has also paid for and established 
secure communication channels to all of our state and territorial 
governors and their state emergency operations centers. This investment 
in communication equipment included secure VTC equipment along with 
Stu/Ste telephones. DHS has also worked to ensure every governor has 
been cleared to receive classified information and are working with the 
Governors and their Homeland Security Advisors to provide security 
clearances for five additional people who support the Governors' 
Homeland Security mission. This provides DHS an avenue for 
disseminating classified information directly to the location that 
needs the information. Lastly, one of the primary ways in which DHS is 
improving its communication with its constituents is through the 
Homeland Security Information Network (HSIN) and specifically through 
the Joint Regional Information Exchange System (JRIES). Using this 
network, federal, state, and urban area homeland security advisors will 
be able to communicate with each other and with DHS, as will federal, 
state, and urban Emergency Operations Centers, and the National Guard 
and the state adjutant generals. Once connected, user groups will have 
access both to communication streams with each other and DHS, as well 
as to DHS warning products distributed by IA.
    All DHS entities (along with all IC members) share information with 
IAIP, which analyzes and distributes the information to State, 
territorial, tribal, local and private sector entities. IAIP receives 
this information not only through the described reports, but also 
through BTS representation in IA and the HSOC. The IAIP performs 
analysis and shares information to support its own mission and to 
provide information that meets the needs of other intelligence 
consumers.

US-VISIT
    2. DHS submitted the fiscal year 2004 expenditure plan for US-VISIT 
to Appropriations several weeks ago. The fiscal year 2005 request is 
$340 million, which is a $12 million increase. How will this funding be 
allocated in order to implement US VISIT at the 50 largest land border 
ports of entry?
    Answer: The fiscal year 2004 Expenditure Plan included resources 
for implementing US-VISIT functionality in secondary inspection at the 
50 largest land border ports of entry to meet the statutory requirement 
of December 31, 2004. The Expenditure Plan for fiscal year 2005 
includes funding to pilot US-VISIT functionality in entry and exit 
lanes for selected ports of entry.

    3. What is the ``end vision'' for the US-VISIT system? How and when 
does DHS anticipate reaching that objective?
    Answer: US-VISIT has begun the effort to create a strategic plan 
that will establish an overall vision for immigration and border 
management and identify the mechanisms necessary, including technology, 
facilities, and data necessary to achieve the vision. Fundamental to 
this vision is ensuring that appropriate information is available to 
decision makers (e.g. consular officers, border officers, 
investigators, immigration adjudicators, intelligence entities) in real 
time. However, to introduce immediate security improvements, we have 
focused on an incrementally developing and deploying capabilities. US-
VISIT faced some significant challenges, especially in the early days, 
but has overcome those challenges by phasing-in improvements over the 
past two years.
    The end vision of the US-VISIT Program is to deploy end-to-end 
management of integrated processes and data on foreign nationals 
traveling to the United States covering their interactions with U.S. 
officials before they enter, when they enter, while they are in the 
U.S., and when they exit. This comprehensive view of border management 
leads to the creation of a ``virtual border'' and will set the course 
for improved business processes across the Government stakeholder 
community for management of information on foreign visitors.
          US-VISIT Program responsibilities begin when a foreign 
        national petitions for entrance, applies for a visa at a 
        consular office, or applies for enrollment in an expedited/
        trusted traveler program. The US-VISIT Program will support 
        pre-entry processes by using collected biographic, biometric, 
        and previous travel and visa information to authenticate unique 
        identity, match against watch lists, and support the issuance 
        of travel documents.

          During the inspection process, machine-readable, tamper-
        resistant travel documents will be read, biometrics collected, 
        and information regarding a foreign national's U.S. travel and 
        immigration will be available for decision-making purposes. 
        Foreign national visitors who appear on watch lists, whose 
        identities cannot be verified, or who attempt entry using 
        fraudulent documents will be efficiently sent to secondary 
        inspection for further processing.
    The US-VISIT program will keep track of changes in foreign national 
visitor status as well as identify visitors who have overstayed their 
visas. This information will be reported to agencies, such as U.S. 
Immigration and Customs Enforcement, for appropriate action.
    As foreign national visitors leave the U.S., their exit will be 
recorded. Entry and exit records will be matched and visa compliance 
will be determined and maintained along with travel history.
    The data acquired by the US-VISIT Program should prove increasingly 
useful as it accumulates. Initially, this data will be used to develop 
resource and staffing projections for Ports of Entry and regional 
facilities. As more entry and exit information becomes available, the 
US-VISIT Program will enable traffic, travel, and traveler analysis. 
Travel and traveler analysis will contribute to foreign national risk 
assessment and intelligence.
    When the vision is fully realized the US-VISIT Program will 
contribute to the border management goals and will provide our citizens 
and visitors with a more expeditious and secure border-crossing 
process.
    The US-VISIT end vision will be achieved incrementally over the 
next several years. The priorities in fiscal year 2003-2005 are to meet 
the legislative mandates and demonstrate initial progress toward 
achievement of performance goals for national security, facilitation of 
trade and travel, and supporting immigration system improvements. In 
fiscal year 2006, US-VISIT will complete satisfaction of its 
legislative mandates. At this point, US-VISIT will have delivered an 
interim capability that addresses the first set of requirements levied 
on the program. However, the most crucial and challenging need of the 
program-that of transforming border management through the delivery of 
an endto-end, fully integrated set of processes and systems supporting 
interoperability across the stakeholder community-will only be in its 
early stages.
    Transforming border management will require work on several fronts. 
First, it means reengineering the processes to fully address creation 
of the virtual border, development of integrated inspection processes 
that leverage access to integrated traveler data, and enhancement of 
analytical capabilities to support risk analysis and decision-making.
    Second, it means tackling the challenging task of consolidating, 
replacing, and retiring aging legacy systems. Modernizing the systems 
supporting US-VISIT will require coordination of and collaboration on 
system decisions across the border management community including DoS, 
CBP, ICE, USCIS, DOJ, DOT, and Commerce. The need to improve system 
performance, interoperability, and data sharing along with reducing O&M 
costs will influence those decisions. Finally, it means ensuring that 
US-VISIT monitor the international environment and the potential 
threats and implement capabilities to address gaps in coverage of 
travelers and entry points; identify opportunities to integrate 
additional information sources, systems, and processes together to 
extend the web for border management; and apply new technology where it 
can help address mission goals.
    US-VISIT will continue to work with its Federal stakeholders 
through its Advisory Board to guide the course set for the Program 
using the Board to identify issues that will require coordination and 
policies that need to be defined.

    4. In view of the prospect that few, if any, of the 27 Visa Waiver 
Program countries can comply with the October 26, 2004, deadline to 
begin issuing biometric passports, what steps does BTS expect to take?
    Answer: All visa waiver program (VWP) countries had to certify by 
October 26, 2004 that they have a program to issue biometrically 
enhanced passports in order to continue in the VWP. Most, if not all, 
of the VWP countries have informed the U.S. that they will not be able 
to issue International Civil Aviation Organization (ICAO) compliant 
passports by October 26, 2005 due to technical and other factors. The 
Administration requested a two-year extension in order to allow the 
countries time to meet the requirement. A one-year extension was 
granted. As part of the decision to request the extension deadline, and 
in order to provide enhanced security, as of September 30, 2004, all 
VWP travelers will be enrolled in thru US-VISIT.

    5. What additional security measures are anticipated for persons 
holding Border Crossing Cards as US-VISIT comes into effect on the 
southern border?
    Answer: In response to congressional mandate, US-VISIT will take an 
incremental approach to implementing enhanced security measures at land 
border Ports of Entry (POEs). Currently, Border Crossing Card holders 
who request a stay longer than 30 days (extended from 72 hours this 
summer) or anticipate traveling beyond the 25 mile limit (75 miles in 
Arizona) are required to provide biographic information regarding their 
stay using a paper process (Form 1-94). By December 31, 2004, US-VISIT 
will be deployed in the Secondary Inspection area of the 50 busiest 
land POEs, including 34 on the southern border. . With the deployment 
of US-VISIT travelers processed through secondary inspection will have 
an additional requirement to provide biometric information (digital 
photograph and fingerprints unless exempt by policy), which will 
provide the following additional security benefits:

        1. Improved traveler identification at Secondary Inspection 
        locations through use of biometrics.
        2. A traveler's identity to be can be established and verified 
        using biometrics.
        3. Improved document validation at Secondary Inspection 
        locations through expanded access to Department of State visa 
        data.
        4. Improved threat analysis and determination of admissibility 
        through enhanced access to biometric Watch Lists at Secondary 
        Inspection locations.
        5. The ability to present additional information to the CBP 
        officer in Secondary, which will allow the officer to view more 
        information in the same amount of time resulting in a more 
        informed decision regarding admissibility.
        6. I-94 Data will be made available to all Ports of Entry and 
        authorized users within hours rather than the current process 
        which can take weeks.
    US-VISIT intends to expand this capability to all land POEs by 
December 31, 2005.

Customs and Border Protection
Cargo Security
    6. The fiscal year 2005 budget requests $50 million for radiation 
detection monitors. Is this funding for ``next generation'' or will it 
be used to purchase and deploy machines at remaining land and sea ports 
of entry?
    Answer: The Department of Homeland Security anticipates that the 
$50 million request in the President's fiscal year 2005 budget request 
for radiation detection equipment will be utilized for next-generation 
technology deployment. DHS's Science and Technology Directorate is 
working closely with Customs and Border Protection, Office of Field 
Operations, to ensure that CBP has the best available radiation 
detection technology.
    7. The Customs-Trade Partnership Against Terrorism (C-TPAT) helps 
to ensure security of cargo all along the supply chain. Under this 
program, companies sign an agreement with CBP to conduct a 
comprehensive self-assessment of their supply chain security and to 
improve that security using C-TPAT security guidelines. Companies that 
meet security standards receive expedited processing through ports of 
entry, again enabling CBP to focus on higher risk shipments. As of 
August 2003, over 3900 companies are participating in C-TPAT to improve 
the security of their supply chains. Based on current rates of 
enrollment, this number is expected to reach 5000 companies enrolled by 
the end of fiscal year 2004. Were there standards and best practices 
developed for assessment and validation purposes of C-TPAT companies? 
If so, who developed them and how?
    Answer: There are specific security recommendations for each sector 
of C-TPAT membership. These recommendations were developed by CBP, with 
substantial input from the trade community, and based upon our 20 years 
of anti-smuggling / industry partnership expenence.
    What plans does BTS have order to ensure the continued integrity of 
the companies screened and subject to less scrutiny at our ports of 
entry?
    Answer: C-TPAT Validations enable CBP to review the security 
measures and procedures of the member's supply chain for effectiveness, 
efficiency and for accuracy. Each Validation is customized based on the 
member's business model and according to the security profile approved 
by CBP.
    <bullet> Will DHS consider such options as random screening of ALL 
cargo containers, including C-TPAT company's containers?
    Answer: C-TPAT members are not exempt from CBP examinations.
    8. The fiscal year 2004 budget request for CTPAT was 17.9 million 
with 79 Full Time Employees (FTEs). The fiscal year 2005 request 
represents a 111 increase in funding and 138 additional personnel. How 
will the additional funding and staff be allocated?
    Answer: The fiscal year 2004 appropriated amount for C-TPAT was 
$14.1 million with 79 fulltime equivalents (FTEs), or 157 new 
positions. The fiscal year 2005 request of $15.215 million represents 
an increase in funding to cover an additional 60 FTEs, or 120 new 
positions. The requested funding will be used for expenses associated 
with the new positions, validations, equipment, training and outreach.
    <bullet> Is any funding directed toward engaging importers to join 
the program?
    Answer: An appropriate amount of funding will be utilized to engage 
all sectors of CTPAT membership, including importers, for outreach and 
recruiting purposes.
    <bullet> How much will go into validating applicants?
    Answer: The primary responsibility of our Supply Chain Specialists 
is to conduct validations. For this reason, the majority of our travel 
money will be used for validating certified members.
    <bullet> What is the timeline for completing those validations?
    Answer: Over 700 validations have been initiated with over 240 
completed. Our goal for the current calendar year is to have completed 
a total of 400 validations.

    9. The fiscal year 2005 budget provides funding to hire 100 
additional supply chain specialists to validate C-TPAT companies. 
Currently there are 23 employees doing this work. There are roughly 
5,000 companies in the program with 141 validations complete and over 
700 in the process. What is the goal for completing the validation of 
the 5,000 companies once additional staff is hired? Will the 
approximately 120 FTEs provide some growth capacity for the program? At 
the same time that we are trying to complete the validations, we are 
trying to expand participation.
    Answer: The validation process enables U.S. Customs and Border 
Protection (CBP) and the C-TPAT participant to jointly review the 
participant's security procedures to ensure that security measures are 
being effectively executed. The validation process also promotes an 
exchange of information on security issues by both CBP and the company, 
and the sharing of ``best practices'', with the ultimate goal of 
strengthening the partnership and the security of the international 
supply chain.
    Over 700 validations have been initiated with over 240 completed. 
Our goal for the current calendar year is to have completed a total of 
400 validations.
    The 120 new positions requested in fiscal year 2005 will also 
enable growth capacity for CTPAT and will allow CBP to meet current 
mandates, including conducting validations, performing trade outreach 
and antiterrorism training. In addition, the 120 positions will allow 
C-TPAT to continue to enable trade by improving supply chain security 
and increasing supply chain performance. This optimizes the internal 
and external management of assets and functions while at the same time 
enhancing security in order to prevent the introduction of implements 
of terrorism into legitimate trade entering the U.S.

    10. Will CBP preserve its Customs Management Centers with their 
existing organization and command structure?
    Answer: The organizational structure was reviewed in fiscal year 
2004. CBP, within the Office of Field Operations, will maintain 20 
Directors of Field Operations--DFO's (formerly called Customs 
Management Center Directors) in their field organizational structure 
providing operational oversight to the ports of entry under their 
jurisdiction. The CBP Field Offices will remain in the same 20 cities 
where the Customs Management Centers were located.

Port Security
    11. How are the respective DHS functions at seaports (i.e. Coast 
Guard, ICE, CBP and TSA) coordinated? What steps is the Department 
considering to integrate these functions?
    Answer: The Department of Homeland Security (DHS) is implementing 
an integrated and collaborative process among Federal, state, local and 
private partners to gain the greatest intelligence about the people, 
cargo and vessels operating in the maritime domain and most effectively 
protect our ports and maritime infrastructure.
    The principal coordination mechanism at the seaport level is the 
Area Maritime Security Committee (AMSC), authorized by the Maritime 
Transportation Security Act (MTSA). The Coast Guard Captain of the Port 
(COTP) directs the AMSC as the Federal Maritime Security Coordinator 
(FMSC). Local DHS and other federal agency representatives, including 
Transportation Security Administration (TSA), Customs and Border 
Protection (CBP), and Federal Bureau of Investigations (FBI), are on 
each committee. Forty-three AMSCs have been chartered across the 
country with emphasis on advance security measures and plans to deter 
threats and provide a strong framework for response and recovery in the 
event of attack. Under the AMSCs, Federal, state, local and private 
authorities work together as a team to maintain and enhance security. 
This type of teamwork enables the entire maritime community to rapidly 
respond to both general and specific threats. Increased communication, 
teamwork and coordination is an example of the public and private 
sectors working together to secure our homeland. As a result, the 
leadership team, the responders, and the organizations are in place and 
working together to ensure security in our ports.
    In the intelligence arena, the COASTWATCH program is the only 
national level DHS node systematically fusing intelligence and law 
enforcement data to identify and warn of potential security and 
criminal threats in the commercial maritime realm far in advance of 
their arrival.COASTWATCH's screening is focused on identifying specific 
ships, people or cargo that DHS may wish to investigate for security or 
significant criminal concerns prior to even nearing the port. 
COASTWATCH results and warnings are shared widely with Coast Guard 
operational commanders, the FBI, the Department of Defense (DoD), other 
intelligence agencies, and our DHS sister agencies, including CBP, TSA, 
and Immigration and Customs Enforcement (ICE).
    On a daily basis, the Coast Guard, CBP and ICE work together to 
ensure a coordinated effort to screen and evaluate safety and security 
risk posed by vessels intending to enter a U.S. port. The Coast Guard 
and CBP have collaborated on a joint effort to enhance the Coast 
Guard's electronic notice of Arrival (e-NOA) system in order to meet 
both the CG and CBP's mandatory submission requirements for vessel, 
crew, passenger, and certain cargo information. Once completed, the e-
NOA will allow vessels to electronically submit the required CG / CBP 
NOA information to one consolidated location. The e-NOA will reduce the 
burden on industry by offering an easy-to-use, consolidated submission 
method that will meet both the CG and CBP requirements thereby removing 
duplicate reporting requirements. Furthermore, development of this 
joint system will significantly enhance the processing and sharing of 
information between DHS agencies, increase identification of security 
and safety risk posed by vessels entering a U.S. port and increase our 
overall MDA. The Coast Guard and CBP are in the field testing phase of 
this process and anticipate the system should be available for full use 
by the maritime industry in the fall of 2004.
    The Coast Guard is enhancing its command centers in 40 locations 
and is offering other DHS agencies and port partners the opportunity to 
leverage our investment by either collocating their command and control 
elements in our command center, or by participating on an ``as 
necessary'' basis. We are establishing communications interoperability 
with other agencies and, as our level of Maritime Domain Awareness 
increases through the implementation of better sensors and intelligence 
systems, the Coast Guard will be sharing portions of their Common 
Operational Picture with our local, state and federal partners.
    With our federal government's Awareness, Prevention, Protection, 
Response and Recovery capabilities now under the roof of a single 
department, the level of communication and cooperation among the sister 
agencies of Coast Guard, TSA, ICE and CBP is stronger than ever. CBP, 
TSA and CG are working together to support and align efforts to 
implement MTSA through interagency working groups addressing cargo 
security standards, port security assessments, international port 
security and the development of the National Maritime Security Plan.

Border Patrol
    12. How does CBP plan to incorporate Unmanned Aerial Vehicles 
(UAVs) into border surveillance programs? How will these be coordinated 
with aerial surveillance programs of the ICE Air and Marine Division)? 
How will surveillance data be shared among CBP, ICE and other agencies?
    Answer: CBP is working through the DHS UAV Executive Steering Group 
and UAV Working Group to ensure maximum interoperability and 
commonality is achieved across all of DHS. The DHS VAV Executive 
Steering Group provides oversight and direction to the DHS UAV Working 
Group. The members of the UAV Working Group include Coast Guard, 
Science and Technology, and Border and Transportation Security (CBP, 
ICE and TSA). CBP, within the working group, is currently participating 
in an analysis of alternatives (AoA) for aerial surveillance needs 
within DHS. Once this report is complete the group will begin a process 
to establish a DHS-wide concept of operations (CONOP). At the 
conclusion of the AoA, BTS will determine the need for UAVs as a 
permanent asset for BTS in a CONOP. It is likely that UAVs will support 
other current and emerging sensing technologies to monitor the U.S. 
borders between ports of entry. The CONOPS for UAVs will identify 
unique needs and requirements stemming from each components missions 
and ensure that redundancy and overlaps are minimal. It will further 
ensure that systems procured and deployed on behalf of the DHS are 
interoperable, and that efficiencies are sought. Any data or 
information of interest to the security of the United States that is 
developed during the UAV test programs will be shared via existing 
intelligence and investigative mechanisms. The recent movement of AMO 
from ICE to CBP will enhance the development of the use of UAV's for 
border security programs.

    13. How will CBP and ICE coordinate expedited removal of illegal 
aliens detained at the southern border who are not Mexican? Has BTS 
adopted new removal procedures to support its Arizona Border Control 
Initiative Are their comparable procedures in place for non-Canadians 
detained at the northern border?
    Answer: On August 11, 2004, DHS published a Notice in the Federal 
Register enhancing its ability to apply expedited removal (ER) between 
the ports of entry on the northern and southern borders of the United 
States. The enhanced ER authority is a border control measure, and for 
that reason, it will be applied only to those aliens who have been in 
the United States for less than 14 days and are apprehended within 100 
miles of the border. The enhanced ER is primarily directed at ``third 
country nationals'' who are not citizens of Mexico or Canada. ER will 
not be immediately extended to all land borders. It will first be 
extended between the ports of entry in the Laredo and Tucson border 
sectors and may be implemented in other border locations as needed. CBP 
and ICE are working together to ensure those aliens placed in ER are 
removed quickly. As for Canada, the United States and Canada have a 
longstanding repatriation agreement that covers the repatriation of 
third country nationals who have crossed the United States/Canadian 
border. The United States and Canada have also entered into a ``safe 
third'' agreement that requires (with significant exceptions) asylum-
seekers who have crossed the border to return to Canada and pursue 
their asylum claim there. The ``safe third'' agreement was entered in 
December 2002; a notice of proposed rule-making was issued on March 8, 
2004, and the agreement will be implemented in the future.

    14. How is BTS integrating and coordinated CBP, ICE and related 
operations for the Arizona Border Control Initiative?
    Answer: Border Patrol Tucson Sector Chief (David Aguilar) was 
originally designated as the Border and Transportation Security (BTS) 
Integrator for the execution of the ABC Initiative. Upon his promotion 
to Chief, Border Patrol, the newly appointed Tucson Sector Chief, 
Michael Nicley has taken over the role of Integrator. The Deputy is Mr. 
Phillip Crawford of ICE. The Integrator and Deputy Integrator have a 
combined planning staff in Tucson, Arizona. The Integrator provides the 
multiple federal, state, local and Tribal agencies as well as the 
public with a single point of contact for issues related to the 
initiative. The Integrator maintains frequent direct communication with 
the BTS Operations Staff for the purpose of rapidly sharing information 
between Headquarters and the multiple agencies on scene. These 
communications facilitate coordination on cross-cutting issues and 
assist BTS in maintaining situational awareness of the progress of the 
operation.

Transportation Security Administration
Air Security
    15. What planning activities are in place to study airport demand 
characteristics for the future and allocate screener staffing and 
resources accordingly for fiscal year 2005 and beyond?
    Answer: TSA is in the process of conducting a needs assessment to 
determine the optimal number of screeners at each airport. To ensure 
the project's success, TSA has partnered with the aviation industry to 
form the U.S. Commercial Aviation Partnership, which is studying trends 
in aviation and providing better forecasting to TSA regarding changes 
that are expected in traffic patterns and airport demand. The needs 
assessment effort will also draw on TSA's operational experience. TSA 
believes that both precise forecasting and an operational record are 
critical enablers of an accurate needs assessment to ensure that 
resources are allocated in the most optimal manner in fiscal year 2005 
and beyond.
    Additionally, the Science & Technology Directorate (S&T) has been 
tasked by Secretary Ridge to perform a Systems Engineering study of 
Civil Aviation Security. Under Phase I of that study, staffing levels 
have been obtained for representative alternative configurations for 
checked baggage, checkpoint, and air cargo screening. Under Phase II of 
that study, to be completed over the next several months, system-wide 
staffing estimates will be obtained for these alternatives. However, it 
is not intended that the S&T study will establish optimal staffing 
levels on an airport-by-airport basis.

    16. How will information technology tools like threat image 
projection (TIP) be used to improve staffing allocations, training, and 
so on at screener checkpoints? Have any justification studies been done 
to show the long term payoffs derived from the up front costs of 
implementing TIP and any other IT initiatives?
    Answer: Threat Image Projection (TIP) is a valuable training and 
performance monitoring tool but is not used to determine airport-by-
airport staffing allocations. The expanded 2400-image TIP library is 
used as a key performance measurement of screener effectiveness and to 
identify specific strengths and weaknesses in threat object recognition 
and identification. TIP performance information is used locally by the 
Federal Security Director to tailor weekly recurrent training for 
screeners based on the areas that are identified for improvement. 
National level trend data based on the new expanded TIP library is 
being compiled and analyzed, and national TIP performance standards 
will be issued once data integrity is assured. Analysis of TIP data is 
showing a nationwide improvement in identification of threats of 
approximately 2 percent per month. The Transportation Security Lab is 
developing the functional requirements for the next generation of TIP 
capable x-rays to include adaptive learning technology that reacts to 
the strengths and weaknesses of the individual screener in selecting 
the type of threat objects presented by increasing the difficulty as 
the screeners' performance improves.
    TSA believes that TIP is a critical element of its overall plan to 
continuously improve screener performance, but has not yet conducted a 
long-term payoff analysis quantifying its benefits. Federal Security 
Directors have tools available to them to improve the management and 
scheduling of screeners. Tools such as Kronos for time & attendance and 
Sabre for screener scheduling provide real-time information which 
enables the FSD at each airport to forecast periods of peak demand for 
screening. Additionally, TSA uses more split shifts and part-time 
screeners to maximize the operational flexibility available to FSDs 
when scheduling screeners to satisfy varying levels of demand. These 
applications are important tools that assist TSA in creating additional 
capacity and greater efficiencies in the scheduling of screeners.

    17. How does the funding for canine teams and the number of canine 
teams for air cargo operations compare to the numbers of canine teams 
and funding for operations inside the airport terminal? Has the pilot 
program to study canine inspections of U.S. mail been continued/
expanded, and if so does this fall under the air cargo canine 
operations or airport terminal canine operations?
    Answer: TSA is currently authorized to deploy 341 explosives 
detection canine teams at the Nation's airports. These teams are 
trained, employed and their performance evaluated in airport terminals, 
cargo operations, vehicles/parking lots along with narrow and wide body 
aircraft. Based on each airports unique security requirements, the 
teams are employed in both general airport and cargo operations areas 
as needed. The total authorized number of canine teams nationwide is 
determined by each individual airport's canine team's work load and 
mission requirements. As an example, Miami International Airport would 
have a larger canine team work load than Boise International Airport. 
The TSA Explosives Detection Canine Team Program is a cooperative 
partnership with participating airports and airport law enforcement 
agencies. Currently, TSA provides partial reimbursement at $40,000 per 
canine explosives team to support explosives detection operations at 
each participating airport for costs associated with the teams, such as 
salaries, canine food and veterinary care. Under our current 
reimbursement guidelines, we have allocated a percentage of this figure 
from cargo funds and a percentage from aviation funds. These 
reimbursement percentages are based on the percentage of time canine 
teams are deployed for air cargo and airport terminal operations. As 
new teams are authorized, funded, and dedicated to cargo screening 
operations, these percentages may change.
    In early 2002, TSA, the United States Postal Service (USPS), and 
the aviation industry, agreed that additional security screening 
measures needed to be identified and developed before resuming the 
transport of mail on passenger aircraft. In June 2002, TSA's National 
Explosives Detection Canine Team Program conducted Operational Test & 
Evaluation (OT&E) pilot testing at six (6) major airports with the 
assistance from the USPS and airline industry to determine and 
demonstrate the canine teams' ability to detect actual explosive 
targets within packages that simulated Priority Mail products that were 
independently introduced into actual mail. An additional purpose of the 
pilot testing was to compare the throughput capabilities of both X-Ray 
and canine resources under operational conditions. The results were 
successful. Consequently, in November 2002, TSA established canine 
screening operations for priority mail, in excess of 16 ounces, through 
partnership agreements with USPS and the airline industry at 10 
airports within the 48 contiguous states and at San Juan, PR and 
Honolulu, HI. By the end of fiscal year 2004 over 23,000,000 packages 
will have been successfully screened by TSA-certified explosives 
detection canine teams. The pilot program to study canine inspections 
of U.S. mail falls under the air cargo operations.
    TSA is currently conducting additional Canine Cargo Pilot OT&E 
testing in two phases:
        <bullet> Phase I, tested various explosive targets/distracters 
        that were introduced into multiple cargo configurations at six 
        major airports. All testing was conducted under actual cargo 
        operations and various weather conditions. The OT&E is complete 
        and the preliminary results are promising. The final report is 
        expected in the coming weeks.
        <bullet> Phase II, OT&E started in June 2004 and was completed 
        on schedule in August 2004. The tests were conducted at six 
        major airports where expanded explosive detection investigation 
        took place using multiple cargo airline containers, airline 
        ground support equipment and USPS rolling stock equipment 
        configurations under actual cargo/mail operations and 
        environments. Testing evaluated TSA-certified canine teams' 
        ability to screen larger volumes of mail placed inside USPS 
        ``rolling stock'' equipment containers, which hold larger 
        volumes of bags/boxes. The final test results will be analyzed 
        and recommendations will be proposed for both cargo and mail, 
        in excess of 16 ounces, screening operations at other major 
        airports using TSA-certified explosives detection canine teams 
        along with other system technologies for mail and cargo 
        transported on passenger aircraft.

Railway Security
    18. How are the responsibilities related to rail and transit 
security divided between the TSA and the FTA? Are there mechanisms in 
place to eliminate duplication of efforts, or do some of these 
responsibilities need to be further clarified by Congress?
    Answer: DHS, DOT and component agencies including TSA, FTA, FRA and 
RSPA coordinated very closely on initiatives relating to rail and 
transit security, including the issuance of educational materials and 
security directives establishing a new baseline of security for transit 
and passenger rail operators after attacks on transit systems in Moscow 
and Madrid earlier this year and during both planning for and operation 
of short-term protective initiatives undertaken for various national 
special security events (NSSEs) this summer, including the two national 
conventions, and the period of time leading up to the elections. This 
coordination involved the identification and allocation of resources, 
assets and responsibilities. In addition, DHS and DOT have collaborated 
very closely on initiatives designed to improve the security posture of 
rail operators and shippers that transport Toxic by Inhalation (TIH) 
chemicals, and the major population centers through and near which such 
chemicals are shipped. DHS and DOT are also actively engaged in 
discussions regarding both a transit-specific Memorandum of 
Understanding to articulate DHS component (TSA, IAIP) and DOT modal 
administration (FTA) responsibilities for securing public 
transportation systems--responsibilities that are shared with the local 
system owners and operators, and an overarching MOU which will set 
forth very clearly how the two departments and the component agencies 
will communicate and cooperate with regard to specific initiatives 
designed to strengthen security in the transportation sector.
    In general, on December 17, 2003, the President issued Homeland 
Security Presidential Directive-7 (HSPD-7), which established that the 
Department of Homeland Security and the Department of Transportation 
will ``collaborate on all matters relating to transportation security 
and transportation infrastructure protection.'' HSPD-7 ``establishes a 
national policy for Federal departments and agencies to identify and 
prioritize United States critical infrastructure and key resources and 
to protect them from terrorist attack.'' Under HSPD-7, the Secretary of 
the Department of Homeland Security has the lead role in coordinating 
protection activities for ``transportation systems, including mass 
transit, aviation, maritime, ground/surface, and rail and pipeline 
systems,'' while DOT is responsible for promoting the safety, 
efficiency, effectiveness, and economic well-being of the nation's 
transportation systems. The Department of Homeland Security (DHS) is 
responsible under HSPD-7 for developing a National Critical 
Infrastructure Protection Plan. TSA has been assigned primary 
responsibility for coordinating the development of the Transportation 
Sector Specific Plan among the various federal agencies with 
responsibilities in the transportation sector, including DOT and its 
modal administrations, U.S. Customs and Border Protection, the U.S. 
Coast Guard, and the Information Analysis and Infrastructure Protection 
Directorate, among others.
    DOT and its component modal administrations have subject matter 
expertise, substantial relationships, and frequent interactions with 
stakeholders and federal agencies involved in the entire Transportation 
Sector. For these reasons, and pursuant to HSPD-7, TSA collaborates 
closely with DOT's modal administrators, including the Federal Transit 
Administration (FTA) and the Federal Railroad Administration (FRA), on 
transportation sector security. In partnership with other component 
agencies of DHS and in coordination with DOT modal administrations and 
state, local and private sector partners, TSA leverages existing 
security initiatives; coordinates the development of national 
performance-based security standards and guidance; develops security 
plans; assesses security vulnerabilities and identifies needed security 
enhancements; identifies areas where regulations may be necessary to 
improve the security of passengers, cargo, conveyances, transportation 
facilities and infrastructures; and identifies areas where better 
compliance with established regulations and policies can be achieved. 
TSA is currently developing modal-specific security plans to flesh out 
additional details of each of the transportation modes encompassed 
within the Transportation Sector Specific plan. TSA is working with DOT 
modal administrators in developing these plans.

    19. What level of coordination of transit security efforts is 
currently taking place between the TSA, state and local transit 
authorities and Amtrak?
    Answer: TSA works closely with FTA, state and local transit 
authorities and Amtrak on a regular basis. Before and since the 
issuance of the Security Directives (SD) on May 20, 2004, TSA has been 
in close communication with the FTA and FRA, and transit agencies and 
passenger rail operators throughout the nation. TSA's SDs have assisted 
in ensuring that best practices implemented by a number of the nation's 
largest transit systems both prior to and after the Madrid and Moscow 
attacks, due greatly to the significant effort undertaken by FTA in the 
wake of 9/11 to undertake comprehensive vulnerability assessments of 
major transit systems, are implemented consistently through all the 
nation's commuter rail and transit systems. Additionally, TSA, IP and 
FTA are coordinating very closely to conduct additional criticality 
assessments of the top rail-based mass transit assets.
    TSA has initiated a project aimed at providing comprehensive 
security reviews of all owners and operators in the rail and transit 
environment. TSA meets with stakeholders to review and assess security 
plans and to ensure that baseline security measures have been addressed 
for different threat levels.
    FTA and TSA receive and share information on threats and 
intelligence through the Surface Transportation ISAC (Information 
Sharing and Analysis Center) managed by the Association of American 
Railroads (AAR). TSA has also sponsored a tabletop exercise at Union 
Station Washington, DC involving stakeholders, emergency responders and 
enforcement agencies in implementing the station's Emergency Response 
Plan.
    TSA, AMTRAK, and Federal Railroad Administration coordinated to 
institute a passenger and carry-on baggage-screening prototype for 
explosives in a rail environment called the Transit and Rail Inspection 
Pilot (TRIP). Phase I was conducted in partnership with DOT, Amtrak, 
MARC and Washington's Metro from May 4 to May 26 at the New Carrollton, 
MD, station. Phase II was conducted in conjunction with AMTRAK between 
June 7 and July 5 at Washington, D.C.'s Union Station, and Phase III 
was conducted from July 19 to August 20 and involved a partnership 
between DHS, DOT and the State of Connecticut's Shoreline East Commuter 
Rail.
    Additionally, TSA, in coordination with the Department of Defense 
Technical Support Working Group (TSWG), initiated a project at Amtrak's 
30th Street Station in Philadelphia. The objective of the TSWG funded 
Mass Transit Video Surveillance project is to develop and deploy an 
integrated monitoring, detection, and alerting system with the ability 
to distinguish, track, and display anomalous human behavior in 
multiple-stream video feeds for the identification of possible 
terrorist attacks in a mass transit setting. The system is to be 
adaptable for monitoring a variety of mass transportation venues, 
including mass transit subway stations, light rail stations, bus 
terminals, tunnels, and bridges, and testing is expected to commence in 
late fiscal year 2004.

    20. What is the current status of TSA's planned threat based 
security management system for all modes of transportation, and 
specifically for passenger rail security? How does this system address 
passenger rail security?
    Answer: Consistent with Homeland Security Presidential Directive 7, 
governing protection of critical infrastructures, TSA is developing a 
national transportation security strategy that focuses on awareness, 
prevention, response, recovery, restoration of services, and restoring 
public confidence. In partnership with other component agencies of the 
Department of Homeland Security (DHS), modal administrations of the 
Department of Transportation (DOT) and industry stakeholders, TSA is 
working to assess security vulnerabilities and identify needed 
enhancements to the rail system and related infrastructure, develop 
national performance-based security standards and guidance to assess 
and improve the security of passengers, cargo, conveyances, 
transportation facilities and infrastructures; and ensure compliance 
with established regulations and policies. This information will be 
incorporated into the Transportation Sector Specific Plan (SSP), part 
of the National Critical Infrastructure Protection Plan pursuant to 
HSPD-7. The SSPs articulate and seek to better define and improve how 
federal and privatesector stakeholders communicate and work together; 
how important assets in the transportation sector are to be identified, 
assessed, and prioritized; how protective programs will be developed; 
how risk reduction will be measured; and how R&D will be prioritized. 
TSA and DOT Modal administrations are building the foundation of the 
SSPs to create modal security plans, including mass transit and rail, 
to provide overall operational planning guidance on transit and rail 
security. Development of the Transportation and other SSPs is nearly 
complete. Development of the modal plans will leverage the interagency 
working groups formed to develop the SSP, and is also underway.
    Efforts in rail transit security over the past two years have 
focused on greater information sharing between the industry and all 
levels of government, assessing vulnerabilities in the rail and transit 
sector to develop new security measures and plans, increasing training 
and public awareness campaigns, and providing greater assistance and 
funding for rail transit activities.
    TSA will continue to assess the risk of terrorist attacks on non-
aviation transportation modes, assess the need for passenger, cargo, 
and supply-chain standards and procedures to address those risks, and 
ensure compliance with established standards and policies. The 
following are some of the activities and initiatives DHS has/will 
implement in partnership with TSA to strengthen security in surface 
modes:
        <bullet> Issued Security Directives (SD) to ensure that best 
        security practices are implemented throughout the industry. The 
        SDs establish 16 mandatory protective measures for commuter and 
        transit passenger rail, inter-city train, and regional 
        services.
        <bullet> Ensure compliance with security standards for commuter 
        and rail lines and better help identify gaps in the security 
        system in coordination with DOT, with additional technical 
        assistance and training provided by TSA;
        <bullet> Study hazardous materials (HAZMAT) security threats 
        and identify best practices to enhance the security of 
        transporting HAZMAT.
        <bullet> Conducted a pilot program to test the new technologies 
        and screening concepts to evaluate the feasibility of screening 
        luggage and carry-on bags for explosives at rail stations and 
        aboard trains;
        <bullet> Develop and implement a mass transit vulnerability 
        self-assessment tool;
        <bullet> Continue the distribution of public security awareness 
        material (i.e., tip cards, pamphlets, and posters) for 
        motorcoach, school bus, passenger rail, and commuter rail 
        employees;
        <bullet> Increase passenger, rail employee, and local law 
        enforcement awareness through public awareness campaigns and 
        security personnel training;

    21. When does TSA expect to complete (a) name-based checks and (b) 
criminal background checks for the Transportation Worker Identification 
Card (TWIC) Program? Does TSA intend to prioritize categories of 
workers for background checks?
    Answer: The Transportation Worker Identification Credential (TWIC) 
Prototype Phase has begun in three regional areas: LA / Long Beach, CA; 
Delaware River and Bay; and the State of Florida. Participation in the 
TWIC Prototype Phase is voluntary and expected to include not more than 
200,000 people. TSA intends to complete name-based checks on prototype 
participants against lists of known/suspected terrorists in all three 
regions during the Prototype Phase, but will not make a decision on 
conducting criminal background checks until after the prototype is 
complete. Florida, which is a TWIC Prototype Phase participant, will 
continue to conduct criminal background checks under that state's 
current statutory authority. This background check is a state 
requirement and not a federal or TWIC requirement.
    In conducting the Prototype, TSA and transportation stakeholders 
intend to further evaluate background check approaches and their 
ability to meet the TWIC program's three goals of improving security, 
enhancing commerce, and protecting individuals' privacy. Planning for 
full implementation continues and will be significantly affected by the 
results and lessons learned in Prototype. This planning process will 
include a detailed review of the schedule for implementation, which 
will establish a timeline for completion of name based and criminal 
background checks for transportation workers.

Immigration and Customs Enforcement
Federal Air Marshals
22. Does BTS expect that requiring air marshals on flights by foreign 
carriers to the United States would necessitate significant new 
resources, e.g. for training and liaison with foreign governments and 
airlines? How can BTS vet and certify foreign air marshals to ensure 
they have right level of training and professionalism?
    Answer: The US Government does not require air marshals on foreign 
air carrier flights transiting to/from the United States. On Dec 28, 
2003, the Transportation Security Administration (TSA) issued an 
Emergency Amendment (EA) making reference to placing foreign air 
marshals on flights to/from/over flying the U.S. ``where necessary'' 
when threat information warranted such action. The EA did not stipulate 
that foreign air marshals were required, only that they may be 
required. However, this did prompt many foreign governments to 
reexamine their need for air marshals. As a result, the U.S. Federal 
Air Marshal Service (FAMS) has received numerous requests for FAMS 
provided air marshal training. If the US Government eventually requires 
air marshals on foreign flights, then, the FAMS can expect to see an 
escalation of foreign requests for training. The U.S. Government does 
not certify foreign air marshal programs nor is the U. S. FAMS vetted 
or certified by any foreign entity. Those countries that have air 
marshals transiting the U.S. have been allowed to do so by the 
Department of State (DOS) and the TSA. The DOS relies on TSA's input as 
to whether permission (through a visa) should be granted.

Temporary Worker Initiative
    23. Is USCIS' Basic Pilot Program for employer verification an 
appropriate model for the President's proposal? How might this be 
linked with the ICE Worksite Enforcement Program to develop an 
effective long term, nationwide program? (Note: P.L. 108-156 mandates 
expansion of the Basic Pilot Program at a projected cost of about $5.0 
million more than the current $6.0 million budget.)
    Answer: The concept behind the Basic Pilot Program can be an 
integral and effective part in ICE's overall Worksite Enforcement/
Critical Infrastructure Protection strategy. The capability of 
legitimate employers to easily verify employment authorization will 
help to reduce the number of opportunities for undocumented aliens who 
gain employment in the United States through the presentation of 
fraudulent documents. As the program expands throughout the United 
States, ICE may use it to supplement its enforcement plan as an after 
action tool. For example, recent ICE operations have focused on the 
reduction of vulnerabilities to the nation's economy and critical 
infrastructure. As ICE reviews employers and employees in these areas, 
the employers may be enrolled in the Basic Pilot Program to assure that 
future employees are authorized for employment. This will reduce the 
need for ICE to continue to scrutinize a particular industry.
    Given its expanded use and potentially growing role, it will be 
important to re-evaluate the technology incorporated in the Basic Pilot 
Program to ensure that it will continue to provide a fool-proof tool 
for employers.

ICE Detention and Removal
    24. As the pace of ICE enforcement and removal activity quickens 
(with the $186 million increase in fiscal year 2005 programs), at what 
point will the number of detained aliens exceed the capacity of DHS to 
hold them or keep track of them?
    Answer: Currently, ICE detains 23,000 aliens, on average, per day. 
However, ICE estimates that there is a potential requirement for 
detaining upwards of 36,000 aliens, on average, per day. Because 
detention is very expensive and because not all aliens must be detained 
in order to maintain effective control over them, DHS / ICE is 
developing more cost-effective alternatives to detention. Alternative 
to detention initiatives include electronic monitoring and intensive 
community supervision.
    For fiscal year 2004, DHS / ICE is piloted eight intensive 
supervision sites, each with 200 participants. The fiscal year 2005 
budget includes funding ($11 million) to double the capacity at each of 
those sites and to add one new site. These enhancements allow for the 
controlled supervision of 3,400 low threat-risk aliens nationwide. Use 
of detention alternatives for low risk aliens allows for increased 
detention of higher risk aliens and results in better security for US 
citizens. This initiative received appropriations in fiscal year 2005 
at the level of the request.
    It is difficult to estimate the precise point at which the number 
of detained aliens will exceed DHS' ability to either hold or keep 
track of them. Currently, DHS / ICE effectively detains or supervises 
approximately 1 million aliens nationwide. Clearly, initiatives such as 
alternatives to detention expand DHS's ability to control non-detained 
aliens, while initiatives such as expedited removals and institutional 
removals speed the process of deporting removable aliens and thereby 
reduce overall requirements for detention and tracking.
    25. Do the MOUs with Florida and Alabama on local enforcement of 
immigration laws provide a boilerplate for expanded interior 
enforcement? Does ICE plan any new MOU's as provided by the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 and other 
legislation?
    Answer: Section 287(g) of the Immigration and Nationality Act 
(I&NA) affords ICE and state and local law enforcement agencies an 
opportunity to address specific criminal activity and security concerns 
when dealing with foreign nationals residing in the United States. The 
Section 287(g) Program serves as a force multiplier for both ICE and 
the participating state/local agency.
    The required Memorandum of Understanding (MOU) is used to establish 
the parameters by which the cross-designated officers will use their 
ICE immigration authority. This allows both parties to address the 
public safety concerns in their geographical areas covered by the MOU.
    ICE is currently developing MOUs with the Commonwealth of Virginia 
and Los Angeles County, under 287(g). ICE does not actively pursue or 
solicit state and/or local enforcement agencies to participate in the 
287(g) Program. The state and/or local political entity must initiate a 
request to DHS/ICE to participate in the 287(g) Program.

ICE Air and Marine Operations (AMO)
    26. How have AMO's operations and responsibilities changed since 9/
11, and what resource demands have these changes entailed? How are 
these needs being met?
    Answer: In the post-9/11 strategic environment, a new national 
requirement for airspace and marine security has been identified and 
entrusted to AMO. This includes new missions such as airspace security 
over Washington, D.C., designated National Security Special Events, 
Continuity of Government operations and the launch of five new Northern 
Border Branches. This is a significant and rapid expansion of 
operations and responsibilities beyond AMO's legacy customs 
interdiction mission.
    AMO covers the most pressing tasks and missions today by surging 
its personnel, resources and force structure that are still mainly 
sized against the pre-9/11 legacy missions. Supplemental appropriations 
have met some of the additional costs associated with the expansion in 
AMO missions and responsibilities. AMO is presently revalidating 
requirements and identifying the force structure and capital equipment 
needed to complete its transition into a force enabled to cover fully 
all of the new air and marine missions beyond its legacy Customs 
interdiction role.

    27. What plans are there to economize or integrate BTS and Coast 
Guard air and marine assets--e.g., capital acquisitions and facilities, 
support and maintenance programs?
    Answer: In fiscal year 2005, BTS air and marine assets will be 
consolidated within the Bureau of Customs and Border Protection. 
Efforts are underway to manage that consolidation to ensure the maximum 
operational and cost efficiencies.
    While this consolidation proceeds, the Department will continue to 
review additional operational and cost efficiencies that can be gained 
between CBP and Coast Guard air and marine personnel, programs and 
equipment. The Department manages this ongoing review through the 
Aviation Management Council which provides the leadership and oversight 
on joint DHS Aviation policy, operations, procedures, requirements, 
sourcing strategies and asset management to support the needs of the 
Department. This group is currently engaged in drafting a Department-
wide Aviation Concept of Operations for review by the DHS Joint 
Requirements Council.
    Similarly marine assets continue to be reviewed by the Department's 
Vessel Commodity Council. Although CBP and USCG have very different 
marine missions, efficiencies may be gained by consolidating hull 
designs and/or outboard engines, and standardizing maintenance 
procedures on similar platforms and equipment. Furthermore, other 
actions are being taken, for example: CBP is currently co-located with 
USCG at their Niagara facility; also, upon delivery of the SAFE Boats 
purchased from a Coast Guard contract, CBP plans to co-locate with USCG 
and ICE at their facilities in Bellingham, WA, and is exploring 
consolidated maintenance facilities with both USCG and ICE in 
Brownsville, TX; and CBP is in the process of scheduling 
representatives from the Coast Guard to provide an unbiased look at CBP 
boat operations (in selected sectors) and offering best practices for 
consideration.

    28. What will be the effect of the proposed threefold increase in 
flight hours on the AMO's aging P-3 surveillance aircraft? When will 
DHS need to start replacing or refitting these aircraft?
    Answer: The flying constraint has primarily been adequacy of 
operations and maintenance funding. AMO's current P-3 inventory is 
capable of flying the requested increased flight hours. With minor 
manning augmentation, it will be very achievable to meet the increased 
and expanded mission requirements.
    Recapitalizing or modernizing to meet the P-3 specific mission 
capability is part of AMO's deliberate modernization plan. This plan 
will be reviewed by both the Department's Aviation Management Council, 
and the Joint Requirements Council vis-a-vis all the other DHS aviation 
requirements. Once that review is complete a recapitalization plan will 
be developed.

    29. When will DHS submit to Congress its ``Assessment of Aviation 
Operations and Support?'' Will it conduct a similar review of AMO, CBP 
and Coast Guard maritime operations to assess benefits of integrating 
those activities?
    Answer: The ``Assessment of Aviation Operations and Support'' has 
been conducted with the assistance of Booz-Allen-Hamilton. The 
Department has already initiated many of the recommendations stemming 
from the report. The Assessment of Aviation Operations and Support 
results have been made available to the Government Accountability 
Office to aid in their engagements pertaining to the Review of the DHS 
Efforts to Share Assets. Once the full report has been reviewed and 
accepted throughout the Department it will be available for 
distribution.

    30. What are DHS recommendations for closing gaps in low-level 
surveillance by Tethered Aerostat Radars (TARS)? How should this 
coverage be assured over the long term? Has DHS made an assessment of 
any new technology or systems which can fulfill this role?
    Answer: TARS is a critical component in the interdiction of 
airborne threats to the U.S. and forms part of our last line of border 
defense. It is the only fixed system that provides low-level radar 
coverage of air targets, and can provide some surveillance of maritime 
and land targets.TARS currently provides the nation's most effective 
surveillance system against multiple threats, and serves many national 
objectives including homeland security; countering illicit traffickers 
(air, land and sea); air sovereignty; air traffic control, and flight 
safety. TARS is the only sensor system that can provide detection and 
monitoring (D&M) of multiple airborne threats (drug smuggling, 
terrorism, air-delivered WMD) on the southern approaches to the US--
especially the southwest border.
    Counterdrug D&M was made the statutory responsibility of DOD in the 
1989 Defense Authorization Act. Specific responsibility for funding and 
operation of TARS was assigned to DOD by separate statute in 1992. We 
believe that this critical system, by roles, missions, and governmental 
functions was properly assigned to DOD by Congress. DOD should retain 
responsibility for this critical system.
    The Department of Homeland Security is a strong advocate for TARS 
and supports a complete TARS border surveillance system, until new 
technologies are developed to meet this operational requirement. This 
system would support air, land and sea surveillance requirements of 
Border Patrol, U.S. Coast Guard, Office of Air and Marine Operations 
and other DHS components as well as DoD.
    DHS is exploring new technology to meet border security mission 
requirement. The border security mission will be supported through a 
variety of systems. Sensors such as TARS, UAVs, rotary and fixed wing 
aircraft, and ground-based equipment and personnel to operate and 
maintain these systems must be coordinated and aligned against the 
highest critical vulnerabilities and threats. TARS is one critical and 
cost-effective element of this system.UAVs hold promise in some 
applications.

Overseas Programs (ICE and CBP)
    31. What plans does ICE have for expanding the reach of the Visa 
Security Program (mandated by P.L. 107-296, Section 428) to countries 
other than Saudi Arabia?
    Answer: DHS plans to open additional overseas visa security offices 
during fiscal year 2005. DHS, in consultation with DOS Bureau of 
Consular Affairs, has identified the next priority sites based on a 
risk assessment. To extend the reach of the program, these next offices 
will cover defined geographic regions. As well, DHS is exploring the 
concept of ``rapid response teams'' that would deploy to posts for 
short periods of time to provide advice and training to the consular 
officers on emerging threats and various methods to enhance their 
adjudication activities.

    32. What value-added can VSP officers bring to overseas functions 
beyond what is already covered by Department of State officers (who 
themselves receive training in security procedures with DHS assistance 
under terms of a DHS-State MOU)? To what extent will VSP officers play 
a liaison role to build up cooperation with their host country law 
enforcement counterparts?
    Answer: Each department has a separate focus, responsibility, and 
area of expertise. Visa Security Officers (VSOs) focus on visa issues 
and individual applicants that raise national and homeland security 
concerns, whereas Consular Officers manage the day-to-day adjudication 
of visa applications while also keeping security a high priority. VSOs 
bring extensive subject matter expertise to this process, including 
knowledge of immigration law, counter terrorism, document analysis, 
investigations, intelligence research and dissemination, interviewing 
and fraud detection. VSOs are seasoned, highly skilled officers with 
experience in criminal enforcement outside, at, and within the border, 
including potential abuses of the visa process. As law enforcement 
officers, VSOs are best equipped to interpret, evaluate, and apply this 
information. VSOs will coordinate with other law enforcement 
authorities and appropriate DHS headquarters components to gather 
information necessary to refuse visas to individuals who pose security 
concerns, and to investigate abuses of the visa system. At post, VSOs 
will participate in the terrorist lookout committee and other relevant 
groups, and will build relationships with the u.S. law enforcement 
community,. VSOs will assist with intelligence research, investigative 
activity, risk assessment, and other collaborative law enforcement 
efforts.

    33. What plans does DHS have for the reported ``Immigration 
Security Initiative,'' i.e. placing CBP inspectors at foreign hub 
airports to pre-screen U.S.-bound passengers? Have the concerned 
foreign governments agreed to this and, if so, with what conditions? 
How many inspectors might be required, and does the fiscal year 2005 
budget cover this program?
    Answer: The Immigration Advisory Program (IAP), formerly known as 
the Immigration Security Initiative (ISI) began a pilot program on June 
26, 2004, with the deployment of four U.S. Customs and Border 
Protection (CBP) Officers to Schiphol Airport, the Netherlands. After 
the advice and consent of CBP's international partners in customs and 
immigration, CBP Commissioner Bonner renamed this program from ISI to 
IAP. A second effort began at Warsaw's Chopin Airport on September 15, 
2004, with the deployment of five CBP Officers.
    The IAP is based on a concept that is recognized and endorsed by 
the International Air Transport Association/Control Authority Working 
Group (IATA/CAWG). In fact, IATA/CAWG developed a code of conduct for 
the Immigration Liaison Officer (ILO). Other like-minded countries, 
Canada, United Kingdom, Australia and the Netherlands have similar 
programs in place.
    The number of officers needed depends on the flight and passenger 
volume at each location. At major overseas hubs many U.S. bound flights 
depart within a narrow time frame. Therefore, there will be a need for 
more officers at those locations.
    Congress added $2 million in fiscal year 2005 to expand the program 
to new locations.

    34. How can BTS leverage its resources for greater effectiveness of 
its overseas personnel? For example, can VSP officers carry out pre-
inspection tasks on behalf of CBP? How has BTS organized its component 
units overseas to ensure that they are coordinated and can complement 
one another?
    Answer: The structure of the DHS international organization is 
currently under review. BTS in particular is considering ways to better 
share resources and responsibilities and to improve coordination and 
communication among overseas components.

    35. What plans does BTS have to attract qualified personnel and 
build up a cadre of officers with the necessary functional, linguistic 
and international expertise as mandated in Section 428 of the Homeland 
Security Act?
    Answer: BTS has developed a staffing model for the visa security 
offices overseas and has defined selection criteria for Visa Security 
Officers (VSOs). These criteria include: law enforcement expertise, 
including investigations; counterterrorism experience; fraud document 
detection training and experience; knowledge of immigration law; 
experience working overseas in a diplomatic and interagency 
environment; and language capabilities. The law enforcement career 
tracks within the BTS components of ICE and CBP provide a large 
available cadre of personnel with these types of functional expertise, 
including experience working overseas. BTS has been very successful 
recruiting volunteers to serve in the program and will continue to tap 
this highly skilled pool of personnel. Once selected, the officers will 
receive mission-specific training that refreshes functional skills and 
prepares VSOs to serve in this unique capacity. BTS will continue to 
address the government-wide shortage of language-qualified personnel by 
providing significant language training to the VSOs.

Counter-Narcotics
    36. In the Homeland Security Act, the Department was organized to 
include a dedicated Counter-Narcotics Officer on your staff who is to 
ensure adequate focus of homeland security resources to the counterdrug 
mission. This Counter-Narcotics Officer is also designated as the U.S. 
Interdiction Coordinator (USIC) and reports to the Director of the 
Office of National Drug Control Policy (ONDCP) on the overall national 
interdiction effort. How effective has this dual position been? What 
organizational relationship is there between the positions of the 
Undersecretary and the Counter-Narcotics Officer? Does the Department 
of Homeland Security have the resources necessary to attack the current 
drug threat while keeping up with its other responsibilities?
    Answer: The position of DHS Counternarcotics Officer was created as 
an advisor to the Secretary of Homeland Security, not part of BTS 
staff. The current CNO serves in multiple roles as ONDCP Director of 
Intelligence, as United States Interdiction Coordinator, and as DHS 
counternarcotics officer. I meet regularly with the CNO, and two of my 
staff are located in his office. These actions help ensure the closest 
coordination possible on counternarcotics issues.

Questions Submitted by the House Select Committee on Homeland Security, 
                             Minority Staff

    1. According to recent testimony from Dr. Randy Null and additional 
discussions with TSA staff, there are 30--40 airports that would see 
security and efficiency benefits by implementing in-line screening 
systems. However, TSA has signed Letters of Intent with only eight 
airports, and does not plan to expand to significantly more airports. 
What is the Department's plan for implementing Letters of Intent at 
more airports, especially at those that aren't currently able to 
electronically screen all checked baggage?
    Answer: While numerous airports have expressed interest in entering 
into an LOI for an in-line baggage screening solution, TSA continues to 
use its available funding for EDS installation work at airports that 
have yet to achieve, or cannot maintain, compliance with the 100 
percent electronic screening requirement at all airports. TSA is 
working with airports that will not be able to maintain compliance with 
the 100 percent electronic screening requirement because of increased 
passenger loads, increased and/or additional air carrier service, and/
or airport terminal modifications and expansions. The President's 
Budget for fiscal year 2005 supports previously issued 8 LOIs for 9 
airports, and assumes a 75/25 cost share formula as set in the 
Consolidated Appropriations Resolution, 2003. TSA also provides support 
to some airports that have not received an LOI, by providing additional 
funding to install equipment to accommodate increased passenger loads 
and new air carrier service. Although 8 LOIs have been issued, TSA 
continues to evaluate situations where an in-line solution makes sense 
from the standpoint of security, efficiency, and reduced staffing 
needs.

    2. Congress has instituted a cap of 45,000 TSA screeners. Recent 
reports indicate that many airports are understaffed, which leads to 
detection equipment going unused; transfer of screeners away from 
baggage checkpoints to passenger checkpoints, leaving too few screeners 
inspecting checked baggage, and an increase in delay times. Do you 
believe that 45,000 screeners is the optimal workforce size? Would you 
support a detailed study of how many people are needed to appropriately 
conduct airport screening?
    Answer: TSA is committed to providing strong security and the best 
possible customer service while working within the 45,000 screener cap 
set by Congress. TSA is creating a more flexible workforce, better 
coordinating airline schedules and passenger load with staffing needs, 
increasing the proportion of part-time to full-time screeners, and 
strategically using its mobile National Screener Force to meet seasonal 
fluctuations in workload. TSA expects to have a parttime screener 
workforce of close to 20 percent by the end of 2004. Part-time 
screeners create additional operational flexibility when scheduling 
screeners to satisfy varying levels of demand. As a result of reducing 
excess capacity at periods of lower demand, TSA is seeking to make more 
FTEs available to the system as a whole during peak periods.
    In the short-term, TSA is also revising its screener allocation 
methodology which will be completed in 2004.\1\ The approach calls upon 
modeling capabilities and actual operational experience. The revised 
allocation will not be similar to the right-sizing that occurred last 
year, but rather will be modest adjustments based on items such as 
forecasted air travel, hours of operation, baggage screening areas, 
passenger checkpoint lanes, types of equipment and screener Standard 
Operating Procedures as well as FSD input and involvement. TSA is 
shaping the airport's screener staffing levels based on direct input 
from FSDs and will regularly monitor these numbers to ensure staffing 
levels are appropriate based on work force needs.
---------------------------------------------------------------------------
    \1\ After the date of this hearing, TSA completed its revisions of 
the allocation of screeners. The numbers were announced on May 14, 2004 
and reflect a modest adjustment to a workforce already functioning for 
the last six months at the 45,000 full-time equivalent cap.
---------------------------------------------------------------------------
    Simultaneously, TSA is in the process of conducting a needs 
assessment to determine the optimal number of screeners at each 
airport. This is a longer-term project that will evaluate many 
different factors and variables need to be weighed in order to complete 
a thorough study that can be used for all airports across the country. 
To ensure the project's success, TSA has partnered with the aviation 
industry to form the U.S. Commercial Aviation Partnership, which is 
studying trends in aviation and providing better forecasting to TSA 
regarding changes that are expected in traffic patterns and airport 
demand. The needs assessment effort will also draw on TSA's operational 
experience. TSA believes that both precise forecasting and an 
operational record are critical enablers of an accurate needs 
assessment to ensure that resources are allocated in the most optimal 
manner.

    3. Why is the operations budget of the Federal Air Marshal Service 
being cut in this request? If it is because Secret Service and other 
federal law enforcement officers are substituting on some flights, what 
level of training are those officers receiving to act as air marshals?
    Answer: The Department of Homeland Security (DHS) continues to view 
the Federal Air Marshal Service (FAMS) as a fundamental component of 
our national security plan and overall counter-terrorism efforts. The 
services provided by the FAMS are integral to our efforts to instill 
and sustain public confidence in our civil aviation system and for 
providing an expanded law enforcement capability in our skies that 
previously did not exist. In fact, within the span of roughly two and a 
half years the FAMS has fielded a trained work force of literally 
thousands of FAMSs to protect America's citizens and interests in our 
commercial air transportation system.
    In this same time, DHS has also worked with the Congress to invest 
in, develop and implement a layered security plan that encompasses the 
coordinated efforts of an entire spectrum of Federal, State and local 
agencies. These agencies are working together to provide an array of 
intelligence, enforcement and protection services to our civil aviation 
system, our borders and to other areas vital to the nation. Under this 
strategy, we have established mechanisms and programs designed 
specifically to complement one another. For example, DHS has invested 
in cutting edge technology for airport and baggage screening 
activities; we have hardened cockpit doors; we have established a 
Federal flight deck officer training program; and we are continuously 
working to apply the latest intelligence information in shaping our 
decision-making and response to terrorist threats.
    The fiscal year 2005 budget request reflects this layered approach. 
Not only does it include a request that represents a 32 percent 
increase over the fiscal year 2003 level but it also includes a $600 
million request for TSA to increase aviation security and a $10 million 
dollar request for Science & Technology efforts to supports the FAMS.
    The Department is evaluating ways to best leverage the law 
enforcement resources of other ICE programs and federal law enforcement 
agencies in general, in improving our aviation security/counter-
terrorism efforts. These initiatives include the Mission Surge Program, 
which pairs Federal Air Marshals with ICE agents during peak threat 
periods, and the Force Multiplier Program (FMP). Through the FMP, 
participating agencies are provided a computer based training to 
prepare Federal law enforcement officers to react within the unique 
aircraft environment in fan in-flight crisis. Participating Federal law 
enforcement officers traveling in their normal course of business are 
not replacements for Federal Air Marshals. However, the FMP is intended 
to allow FAMS planners to better manage and allocate Federal Air 
Marshal resources and otherwise improve coverage of priority flights of 
interest.

    4. The GAO recently reported that the CAPPS II systems had met only 
one of eight requirements and that several management and program 
objectives were still undeveloped. What is the Department's timeline 
for initial operating capability, full operating capability, and 
deployment of the CAPPS II system? What specific activities will be 
supported with the increased funding requested for fiscal year 2005?
    Answer: After a lengthy review, DHS has announced the creation of 
the new Secure Flight program, which will serve as the next generation 
domestic airline passenger passenger prescreening program. Secure 
Flight will shift responsibility for conducting airline passenger pre 
screening from the airlines to TSA by checking domestic airline 
passenger name records against the consolidated terrorism watch list 
maintained by the Terrorist Screening Center (TSC), and applying a 
modified version of the CAPPS I rules currently operated by the Air 
Carriers.
    Secure Flight will only be implemented after it has undergone 
rigorous and complete testing to ensure that it effectively strengthens 
the security of travel by air, adequately protects passenger privacy, 
and enhances the free flow of commerce. Testing, using historical 
passenger name record information is slated to begin no later than 
December 1, 2004. Secure Flight is expected to be operational in fiscal 
year 2005. TSA will ensure that GAO has access to applicable 
information regarding Secure Flight.
    TSA would spend the $60 million requested for fiscal year 2005 in 
the following manner:

  TSA would spend the $60 million requested for fiscal year 2005 in the
                            following manner:



Secure Flight Testing......................................       $5.25M
Commercial Data Testing....................................        2.50M
Air Carrier Interface......................................       15.50M
Secure Flight Operations...................................       17.00M
Physical Infrastructure....................................       13.25M
Technical Services.........................................        6.50M


    5. Provide funding levels for NEXUS and SENTRI programs for fiscal 
year 2003, 2004 and 2005. Please include vendor cost estimates on 
upgrade and maintenance as well as any estimates on equipment cost for 
expansion of NEXUS, and creation of enrollment centers.
    Answer: The information follows. CBP has been unable to identify 
any appropriated funding for SENTRI.


                                                                                        Fiscal Year  Fiscal Year
                Current Budget &  Projections                      Fiscal Year 2003         2004         2005
                                                                        Budget             Budget       Budget

NEXUS........................................................               $5,600,000            0            0
SENTRI.......................................................                        0            0            0

Budget Requirements..........................................
NEXUS                                                                 Fiscal Year 2005
Maintenance..................................................               $3,000,000
Marketing....................................................                  500,000
Pilot Programs...............................................                1,000,000
New Sites....................................................                3,000,000
Miscellaneous Expenses                                                       1,000,000
  (training/signage/travel/etc.).............................
Enhanced Enrollment Process..................................                2,000,000
Total........................................................              $10,500,000

SENTRI-VehicIe                                                        Fiscal Year 2005
SENTRI Expansion.............................................               $8,400,000
SENTRI Maintenance...........................................                3,300,000
Marketing....................................................                1,000,000
Application Processing Center................................                5,000,000
Total........................................................              $17,700,000

SENTRI Pedestrian                                                     Fiscal Year 2005
Pedestrian SENTRI Expansion..................................               $7,800,000
Pedestrian SENTRI Maintenance (not required..................                        0
  1st year)..................................................
Total........................................................               $7,800,000

NEXUS/SENTRI-Marine                                                   Fiscal Year 2005
Expansion....................................................               $6,000,000
Maintenance                                                                          0
  (not required 1st year)....................................
Marketing....................................................                1,000,000
Total........................................................               $7,000,000


                                 <all>

</pre></body></html>
